No. 19In the

Supreme Court of the United States
TERESA BERRY,
Petitioner,
v.
DELAWARE COUNTY SHERIFF’S OFFICE,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

Steven D. Rowe
Counsel of Record
Kemp, Schaeffer & Rowe Co., LPA
88 West Mound Street
Columbus, Ohio 43215
(614) 224-2678
steven@ksrlegal.com
Counsel for Petitioner

294541

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The Sixth Circuit Court of Appeals affirmed the
judgment from the United States District Court Southern
District of Ohio Eastern Division finding that the
municipality, specifically the Sheriff of Delaware County,
the Officer in charge of the jail, was not liable under 42
USC §1983.
There are four questions presented:
A. The decision by the Sixth Circuit Court of
Appeals as well as the District Court directly
conflicts with Jimenez v. Hopkins Cty., Ky 2014
WL 176578 (W.D. Ky Jan 13, 2014) Shadrick v.
Hopkins Cty., Ky 805 F.3d 724 (6th Cir. 2015)
B. There is testimony in the record as well as a
medical policy which clearly establishes that the
medical policy upon which all testimony relied
was identical to that of the medical policy in place
at the time of Filichia’s death.
C. Deputy Mohnsen and the other Deputies and/or
Correction Officers, although defined by policy
as health trained personnel, had no training on
how to identify a serious medical condition and
ignored the decedent Filichia and her boyfriend’s
requests to take her to the hospital.
D. Is the fact that employees of Defendant are
not trained on how to identify serious medical
conditions sufficient evidence of deliberate
indifference when they only receive First Aid

ii
and CPR; there is no evidence the employees of
Defendant are trained to complete the documents
the District Court relies upon as evidence of
training; Defendants’ caused Filichia to be
sequestered in a holding cell and her water shut
off because of her drug history and then failed
to monitor her for yet another serious medical
condition, withdrawal.

iii
LIST OF PARTIES
The parties below are listed in the caption.

iv
CORPORATE DISCLOSURE STATEMENT
Petitioner certifies that no party to this appeal is a
subsidiary or affiliate of a publicly owned corporation and
no publicly owned corporation that is not a party to this
appeal has a financial interest in the outcome.

v
LIST OF PROCEEDINGS
• Teresa Berry, Administrator of the Estate of
Rhianna Filichia v. Delaware County Sheriff’s
Office, et al., No. 2:16-cv-296, U.S. District
Court for The Southern District of Ohio , Eastern
Division. Judgment Entered February 1, 2019.
• Teresa Berry, Administrator of the Estate of
Rhianna Filichia v. Delaware County Sheriff’s
Office, et al, Case No. 19-3096, U.S. Court of
Appeals for the Sixth Circuit. Judgment entered
November 14, 2019.

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
LIST OF PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . . . 1
CONST I T U T IONA L A N D STAT U T ORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
The Decision of the District Court and the
Sixth Circuit conflicts with an earlier decision
and has departed from the accepted and usual
course of judicial proceedings . . . . . . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR T H E SI X T H CI RCU I T, FI LED
NOVEMBER 14, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPENDIX B — OPINION AND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT
OF OHIO, EASTERN DIVISION, FILED
FEBRUARY 1, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . 22a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
Board v. County Comm’rs v. Brown,
520 U.S. 397, 117 S. Ct. 1382,
137 L. Ed. 626 (1997)  . . . . . . . . . . . . . . . . . . . . . . . . . 22
Brown v. Shaner,
172 F.3d 924 (6th Cir. 1999) . . . . . . . . . . . . . . . . . . . . 25
City of Canton, Ohio v. Harris,
489 U.S. 379 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Holloway v. Brush,
220 F.3d 767 (6th Cir. 2000) . . . . . . . . . . . . . . . . . . . . 21
Jimenez v. Hopkins County,
No. 4:11 CV 00033, 2014 WL 176478 . . . . . . . . . passim
Lawson v. Whitley County,
2012 U.S. Dist. LEXIS 12184
(E.D. Kentucky Jan 31, 2012)  . . . . . . . . . . . . . . .  22-23
Monell v. N.Y. City Dept. of Social Services,
436 U.S. 658, 98 S. Ct. 2018,
56 L. Ed. 2d 611 (1978) . . . . . . . . . . . . . . . . . . . . . 21, 22
Morris v. Dallas County,
960 F. Supp.2d 665, 2013 US Dist.
LEXIS 85593 (N.D. Tex June 18, 2013) . . . . . . . . . . 26

ix
Cited Authorities
Page
Pembaur v. City of Cincinnati ,
475 US 469, 106 S. Ct. 1292,
89 L. Ed. 2d 452 (1986) . . . . . . . . . . . . . . . . . . . . . . . . 22
Russo v. City of Cincinnati,
953 F.2d 1036 (6th Cir. 1992) . . . . . . . . . . . . . . . . . . . 22
Shadrick v. Hopkins County, et al.,
805 F.3d 724 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23, 32
Thomas v. City of Shaker Heights,
2006 U.S. Dist. LEXIS 2095, 2006
WL 160303 (N.D. Ohio Jan 20, 2006) . . . . . . . . . . . . 24
STATUTES, RULES, & CONSTITUTIONAL
PROVISIONS
28 U.S.C. 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Civil Rights Act of 1871, REV. STAT. § 1979,
42 U.S.C. Section 1983 . . . . . . . . . . . . . . . . . . . 1, 21, 22
Sup. Ct. R. 14.1(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Sup. Ct. R. 29.4(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Sup. Ct. R. 29.4(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
OPINION BELOW
Teresa Berry, Administrator of the Estate of Rhianna
Filichia v. Delaware County Sheriff’s Office, et al., No.
2:16-cv-296, U.S. District Court for The Southern District
of Ohio , Eastern Division. Judgment Entered February
1, 2019. This opinion was not published. See 22a-48a.
Teresa Berry, Administrator of the Estate of Rhianna
Filichia v. Delaware County Sheriff’s Office, et al., Case
No. 19-3096, U.S. Court of Appeals for the Sixth Circuit.
Judgment entered November 14, 2019 reported in Lexis as
Berry v. Del. Cty. Sheriff’s Office 2019 U.S. App. LEXIS
33941. See 1a- 21a.
JURISDICTIONAL STATEMENT
Pursuant to SCR 14.1(e) jurisdiction in this Court is
predicated upon 28 USC 1254. On November 14, 2019,
the United States Court of Appeals for the Sixth Circuit
issued an Entry and Order affirming the decision of the
District Court and granting summary judgment against
Petitioner. Accordingly, this Petition for Writ of Certiorari
is filed within ninety days of the entry of judgment from
the Court of Appeal, specifically February 12, 2020. Any
and all notifications required by Rule 29.4(b) and (c) have
been made.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
42 USC Section 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any

2
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief
shall not be granted unless a declaratory
decree was violated or declaratory relief was
unavailable. For the purposes of this section,
any Act of Congress applicable exclusively to
the District of Columbia shall be considered to
be a statute of the District of Columbia.
STATEMENT OF THE CASE
On April 5, 2016, Teresa Berry, Administrator of
the Estate of Rhianna Filichia, filed a lawsuit against
the Delaware County Sheriff’s Office, alleging that the
municipality had violated her constitutional rights to
medical care and her substantive due process rights.
The Complaint was amended to include as a Defendant
Correctional Healthcare Companies, Inc. Defendant
Correctional Healthcare Companies, Inc. settled the
case. Defendant Delaware County Sheriff’s Office filed a
Motion for Summary Judgment. As one of its Defenses,
Plaintiff indicated that Defendant had incorrectly named
Sheriff Russel Martin as the Delaware County Sheriff’s
Office. In response, Berry filed a Memorandum Contra
along with a Motion for Leave to Substitute the Proper
Party Defendant. On January 23, 2019, Appellant’s Motion

3
for Leave to Substitute the Proper Party Defendant was
granted. On February 2, 2019, the District Court entered
judgment against Plaintiff. That case was timely appealed
to the Sixth Circuit Court of Appeals. On November 14,
2019, the Sixth Circuit Court of Appeals affirmed the
decision of the United States District Court.
Rhianna Filichia lived a happy simple life in
Delaware, Ohio
Rhianna Filichia was born on August 15, 1977. (R#12
Pg. ID 43) She grew up surrounded by a large family of
four brothers and two sisters. (R #37-1 Pg ID 1218-1219,
1249-1250) She moved to Delaware to live with boyfriend
James Egbert in a home he purchased for them. (R# 37-1
Pg. ID 1171) Rhianna and Jimmy enjoyed the simply life
together in Delaware with their dogs. (Id.) They enjoyed
camping, fishing and having friends over by the bonfire in
their backyard. (R# 37-1Pg. ID 1174-1175) Unfortunately,
tragedy struck the family when Rhianna died after
serving a weekend sentence in the Delaware County jail
resulting from a conviction for drunk driving.
In July 2013 Filichia was charged with operating
a motor vehicle while intoxicated and failure to yield
in Delaware County. (13 TRC 10354) As part of the
sentencing resulting from that case, Filichia was ordered
to serve fifteen days in jail. (City of Delaware v. Rhianna
Filichia 13 TRC 10354) Filichia served those days on
weekends beginning in January 2016. In late January,
early February, Rhianna began having debilitating
gastrointestinal pain again and missed two weekend
visits at the jail resulting in a warrant being issued for
her arrest. (City of Delaware v. Rhianna Filichia 13 TRC
10354)

4
Rhianna Filichia was plagued by severe diverticulitis
in the months prior to her death
In July 2015 (7 months prior to her death), Rhianna
Filichia was admitted to Grady Memorial Hospital
in Delaware Ohio through the emergency room upon
diagnosis with perforated sigmoid diverticulitis. (R#361 Pg. ID 123 Lns. 1-2) Rhianna was treated through a
course of IV Antibiotics and then an elective sigmoid
colectomy several weeks later. (R#36-1 Pg. ID 123 Lns.
2-8) The colectomy occurred in October 2015. During
the procedure, the colon was in such poor condition, Dr.
Fuller resected most of the sigmoid colon, the descending
colon and a little bit of the traverse colon. (R# 36-1, Pg.
ID 126-127) In the two weeks prior to her arrest on
February 20, 2016, Rhianna’s physical condition was
deteriorating. (R# 37-1, Pg. ID 1178-1179, 1191-1193)
On February 4, Rhianna Filichia was seen in the Grady
Memorial Hospital emergency room with severe stomach
pains. (R# 36-1 Pg. ID 135) The CT scan showed findings
consistent with colitis in the distal part of the colon. (R#
36-1. Pg. ID 135 Lns 23-24) Filichia was released from
Grady Memorial with two (2) antibiotic prescriptions for
Flagyl and Cipro. (R#36-1 Pg. ID 136 Lns 17-20) Filichia
followed up with Dr. Fuller in his office on February 17,
2016, just three days before her arrest. (R#36-1 Pg. ID
135 Lns 17-18) During the appointment with Dr. Fuller, he
noticed tenderness in her abdominal region and ordered
a colonoscopy to determine what if any post-operative
changes may have occurred. (R#36-1 Pg. ID 137-138)
According to Dr. Fuller’s testimony, Rhianna had
** recurrent abdominal pain. It was worse
in the epigastrium, went down both sides,

5
constant, and that’s why she had gone to the
emergency room previously.
(R#36-1 Pg. ID 168)
In the days that followed her visit to Dr. Fuller, as
Rhianna moved around her home, she would wince in pain.
(R#37-1 Pg. ID 1191 Lns 1-4 ) She spent the majority of
her day and evening in bed. Id. If she did get out of bed,
she would often place her hand on her belly because of
the pain generated by the movement. She would go to the
bathroom, and then she would drink down some water,
and then lay back down. (R#37-1 Pg ID 1191 Lns. 5-12)
The more water she drank, it seemed like it would help.
Id. She was in a lot of pain. (R#. 37-1 Pg ID 1191Lns 1-12)
The week prior to the arrest Rhianna did not leave the
home at all. She was home in bed. (R#37-1 Pg. ID 1236)
On the evening of February 19, 2016, Rhianna did not
eat dinner. James Egbert, Rhianna’s partner, didn’t cook
anything because “Rhianna wasn’t feeling good.” (R# 37-1
Pg. ID 1233 Lns 4-6) She was in bed most of the time.
(R# 37-1 Pg. ID 1233 Lns. 7-8) “She was really, really
not feeling good at all.” (R# 37-1 Pg. ID 1233 Lns. 3-9)
Egbert could tell because her stomach was distended and
she was constantly holding it as she maneuvered in and
out of bed. (R# 37-1 Pg. ID 1179 Lns 4-24 “her stomach
was extended. She was like really bloated.”, (R#37-1 Pg.
ID 1199 Lns 20-22)

6
Delaware County Requires Any Arresting Entity
to Take a Person Like Rhianna Filichia who is
in Questionable Health to the Local Hospital or
Emergency Care Center before Delivery to the Jail
Facility.
Delaware County has certain policies in place for the
operation of its jail facility. (R# 50 Pg. ID 2035-2046)
Its Medical Policy requires that detainees who are in
questionable health must be evaluated by a hospital before
they are accepted into the jail. (R# 50 Pg. ID 2037) It
reads in part:
If a person’s physical health is questionable,
the arresting agency shall take the person to
the hospital for evaluation before acceptance.
(R# 50, PG ID 2037) Although that’s how the policy is
written, it is not practiced that way. (R# 37-4 Pg. Id 15001501). In practice, the employees of Delaware County are
not required to take individuals in questionable health to
the hospital upon arrest, they simply drop them at the
jail for evaluation by health trained personnel. (R# 37-4
Pg ID 1500-1501)
Delaware County Jail’s Contract for Health Services
does not require the employment of registered nurses
and only provides physician care for five hours a
week.
Delaware County entered into an Agreement for
the provision of medical services in its jail facility that
results in the presence of licensed practical nurses who
are not authorized to assess or treat patients without the

7
supervision and direction of a physician. (R# 36, Pg ID
304-326) By the terms of its Agreement, a detainee or
inmate is only fit for confinement in the jail under certain
circumstances. (R# 36 Pg ID 304-326) Fit for Confinement
has been defined by Delaware County as:
A determination made by CHC authorized
physician and/or health trained jail staff
that an INMATE /DETAINEE is medically
stable and has been cleared for acceptance
into the JAIL. Such determination shall only
be made after resolution of any injury or
illness requiring immediate transportation
and treatment at a hospital or similar facility.
R# 36-2; R# 36-4 Pg.ID 305), Further, by the terms of
the Agreement, Delaware County only agreed to pay for
the following services and/or health care staff:
1.0.1

A total of 188 hours per week of Licensed
Practical Nurse services to be assigned by
CHC.

1.0.2. Up to 12 hours per week of Master’s Level
Social Worker services to be assigned by CHC
1.0.3. Up to 5 hours per week of Physician services
to be assigned by CHC
(R# 36-4 Pg. ID 310) Licensed Practical Nurses, or LPN’s
The state of Ohio limits the scope of practice for Licensed
Practical Nurses as follows:

8
Licensed Practical Nurse. The LPN has a
dependent role and may provide nursing care
only at the direction of a registered nurse,
physician, dentist, podiatrist, optometrist
or chiropractor (Section 4723.01 (F)) The
“direction” required for LPN practice is
further defined as “communicating a plan
of care to a licensed practice nurse” (Rule
4723-4-01(B)(6)), OAC)
R #50 Pg. ID 2031 Ohio Board of Nursing Scopes of
Practice: Registered Nurse and Licensed Practical
Nurse. The Ohio Board of Nursing specifically lists LPN
prohibitions as follows:
LPN Prohibitions T h e fo l l ow i n g a r e
specific LPN practice prohibitions contained
in law and rule:
• Engaging in nursing practice without
RN or authorized health care provider
direction.
• Assessing health status for purposes of
providing nursing care.
R#50 Pg. ID 2031 At the time that Delaware County
entered into this agreement, it was aware that a physician
would only be present five hours a week, and that the
remainder of time, only LPN’s would be present at the jail.
R# 36-2; R# 36-4 Pg. ID 305, 310. It was also aware, that
by law, LPN’s are prohibited from assessing health status.

9
On February 20, 2016, Terri Bloomfield LPN was
working at the Delaware County jail. (R#51 Pg. ID 2087)
On February 21, 2016, the night of Rhianna’s death Terri
Bloomfield LPN and Charidy Lupu LPN were working.
(R# 51 Pg.ID 2090) Dr. Mitchell MD, is the physician
employed by the medical provider who works in the jail.
(R# 53 Pgs. ID 2391-2392) She appears at the jail only one
day a week for five hours. (R# 53 Pg. ID 2392 Ln 5) She
does not know the definition of fit for confinement. (R# 53
Pg ID 2391-2392) Despite the contract language to which
the Delaware County Sheriff agreed, Dr. Mitchell testified
that she doesn’t know who is responsible for making the
determinations regarding fitness for confinement. (R# 53
Pg. ID 2392-2393) Finally, Dr. Mitchell testified that at no
time during February 20 or February 21, 2016 does she
recall ever receiving a call or any email or other paperwork
from anyone at the Delaware County Jail regarding the
admission, plan of care or diagnosis of Rhianna Filichia.
(R#53 Pg. ID 2396-2398)
Upon entry into the jail for admission, health trained
personnel also known as “correction officers” (R#50
Pg. ID 2036 “Correction officers are considered health
trained personnel”) must perform a medical receiving
screening. (R# 50 Pg. ID 2036, R# 36-10 Pg. ID 547-548).
According to the policy, the inquiry must include at least
the following:
a.

Current and past illness and health problems

b.

Current and past dental problems

c.

Current and past mental health problems

10
d.

Allergies

e.

Current medications for medical or mental
health

f.

Hospitalizations for medical or mental health
purposes

g.

Special health needs

h. Serious infections or communicable illnesses
i.

Use of alcohol and drugs including types,
amounts and frequency used, date or time
of last use and history of any problems after
ceasing use, ie, withdrawal symptoms

j.

Suicidal risk assessment

k. Possibility of pregnancy
l.

Other health problems as designated by the
health authority.

(R# 50 Pg. ID 2036-2037). According to Correction
Officer Coontz and Correction Officer O’Brien, this is
to be completed by the Correction Officers and given to
medical staff prior to the assessment to be completed
by the medical staff to determine if an individual is fit
for confinement. Coontz, O’Brien Depo. (R#37-6, Pg.
ID 1689-1691, R#36-10 Pg. ID 553-556) (An example
of this form which was completed for one of Rhianna’s
previous visits on January 8, 2016 R# 37-7 Pg. ID 1804)
A determination that according to the Delaware County
contract, can only be made by Dr. Mitchell. (R# 36-4

11
Pg. ID 305). However despite the contract language and
state law, in practice, according to Lupu LPN, Bloomfield
LPN and former Nursing Direction Dehaven, fitness for
confinement determinations (assessments of a detainees
medical condition) are made by the LPN’s on duty.(R# 51,
Pg. ID 2068 Lns 17-20; R# 36-12 Pg. ID 743 Lns 13-20)
Even Jackson the Assistant Jail Director understands
that the LPN’s make confinement determinations.(R#
36-2 Pg.ID 214 Lns 1-24)
In addition to the Intake Questionnaire, a medical
staff member is to complete a physical examination of
the potential detainee including the taking of vital signs.
(R# 51 Pg. ID 2058) The practice is to be supported by a
health screening form. (R# 51 Pg. ID 2058) In addition,
if a detainee as part of the health screening mentions a
particular physical issue they are having, a PATHWAY
is to be performed to assist the nurse with asking the
appropriate questions. In conjunction with the pathway, a
Nurse is to complete an SBAR form to send to Dr. Mitchell
with the PATHWAY to allow her to review the detainee’s
medical condition. (R# 36-12 Pg. ID 747 Ln 3-20; Pg. ID
760 Lns 1-10; R# 51 Pg. ID 2166-2169). These forms were
not completed for Filichia’s stay resulting in her death.
On February 20, 2016, Deputy Mohnsen denies
Filichia and Egbert’s request that she be transported
to the hospital, and instead takes her to the Delaware
County Jail.
On the morning of February 20, 2016, Rhianna woke
up in a “God-awful amount of pain.” (R#37-1 Pg.ID 1192
Lns 12-13) She got up from her bed to use the bathroom
and drink some water. (R#37-1 Pg. ID 1191-1193) James
told Rhianna that he wanted to take her to the hospital.

12
(R#37-1 Pg. ID 1193 Lns. 3-9) Rhianna laid back down
next to him and said let’s wait a few minutes and see if
it gets any better. (Id) Not more than five (5) minutes
later, Deputy Mohnsen banged on her door to arrest her.
(R#37 Pg. ID 1193 Lns 10-14) Deputy Mohnsen was met
at Rhianna’s home by another Delaware county deputy.
(R# 37-1 Pg. ID 1193 Lns 21-22 James got up to answer
the door, and informed Rhianna it was the police and that
they were there to take her to jail for missing her prior
weekend visits. Rhianna said, “Oh Jimmy, what am I going
to do? I can’t go in there, I’m hurting so bad.” (R#No. 37-1
Pg.ID 1193 Lns 24; Pg.ID 1194 Lns 1-6)
Upon arrival at Filichia’s home, James Egbert
informed them that Filichia was laying in bed and was
ill. He continued as follows:
I immediately went into telling them that she
called down there to let you guys know that
she couldn’t make it last weekend because she
was so sick and she is still sick. She’s in bed
now. She’s not trying to hid from anybody.
She’s here at home. She’s in bed and she’s
having some complications. You know she
had a surgery back in October, and she was
diagnosed with diverticulitis, and it was quite
possible that something was flaring back up,
and she was having severe pain and had been
in contact with her doctor and the doctor
scheduled a colonoscopy for the 25th.
(R# 37-1, Pg.ID 1194 Lns 17-24, Pg.ID 1195 Lns 1-5) James
Egbert went on to ask if they could please take Rhianna
to the hospital. (R# 37-1 Pg. ID 1195 Lns 6-9; Pg.ID 1196
Lns 1-3) Egbert testified, that Mohnsen said

13
no, she’s got to come with us. We have a
warrant for her arrest. And I pleaded with
them and told them that she was too sick to
go in there, is there any way she could go to
the emergency room and stay.
(R# 37-1 Pg.ID 1195 Lns 23-24; pg. ID 1196 Lns. 1-3 )
James testified that Rhianna took quite a while to get
around because she was in such pain. Mohnsen testified
that
During this time I could see that she was
not moving as I would see a normal person
would move. She moved ver y slow and
sluggishly, almost shuffling her feet kind of
movement. And obviously had a look about
her face that she was in discomfort and just
appeared, you know, not normal. And from
the dialogue with her, I did learn that she
was under the care of a doctor, was having
some gastrointestinal problems, I’m not sure
of the whole nature of it; she didn’t go into
a lot of detail, and she did have a follow-up
appointment at the hospital scheduled for
Thursday.
(R# 37-2 Pg.ID 1350 Lns. 19-24; Pg.ID 1351 Lns 1-8)
James Egbert’s testimony regarding Rhianna’s physical
condition is nearly identical to Mohnsen’s. He offered as
follows:
She was complaining of, you know, hurting
and burning in her stomach. (R# 37-1 Pg.ID
1190 Lns. 20-22)

14
***
She was real sluggish and moving kind of
slow, you know. She was holding her belly and
she was having some pretty bad discomfort
there
(R# 37-1 Pg. ID 1191 Lns. 4-9) Although Deputy Mohnsen
claims to have offered to take Rhianna to the hospital
in his testimony, curiously, he never mentioned that
to Detective Overly who investigated Rhianna’s death
(R# 37-2 Pg.ID 1353), he never mentioned it to anyone
at the jail when he arrived (R# 37-2 Pg.ID 1354) and it
contradicts the statements given by James Egbert under
oath as well as the excited utterance given by Egbert
during the death notification the next day which will be
discussed in detail below (R# 38, R#41). Egbert testified
as follows about his request for medical care to Deputy
Mohnsen and his denial:
Q And did you request medical services prior
to her leaving your home?
A I asked them, yeah, isn’t there any way –
first I asked them is there any way she can
take care of her medical issues before she
comes to the jail, you know. And they said,
nope, we’re here to take her, she has to co me
with us. Well couldn’t she go to the emergency
room instead of the jail? Nope, we’re her to
take her and she going to go with us. That’s
the way its going to be.

15
It reminded me of the Gestapo police because
they were pushing their authority, and being
– it was like overkill, you know, I mean, this
is a two-year-old misdemeanor, and it was
just ridiculous to me.
Q So the medical treatment was denied after
it was requested?
A Yeah
(R# 37-1 Pg. ID 1201 Lns 9-24, Pg.ID 1202 Lns 1-9)
The Delaware County Sheriff Provides Only CPR
and Basic First Aid Training to Its Employees
which is Insufficient to identify any Serious Medical
Condition
Multiple Delaware County Sheriff Employees testified
regarding the limited training they have received as
employees of the Delaware County Sheriff. The list of
employees and their training is as follows:
Deputy Mohnsen received first aid and CPR Training.
(R# 37-2 Pg. ID 1291)
Q Did you ever have any medical training?
A I mean at our agency, we had first aid, CPR,
you know, choking, Buddy Aid first aid.
(R# 37-2 Pg. ID 1291 Lns 18-22) Mohnsen went on to
indicate that he could not identify an individual with
diverticulitis, peritonitis or sepsis. (R# 37-2 Pg. ID

16
1295-1296) Then when asked what questions he would
ask someone to assess their medical condition he stated
“There’s not a standardized list I would use, No.” (R# 37-2
Pg. ID 1297 Lns. 1-2) Finally, if he had had any training
regarding what questions to ask, he stated “Not that I
can think of”. (R# 37-2 Pg. ID 1297 Lns 3-7)
Detective Overly received standard Ohio Peace Officer
Training and does not recall any medical training related
to identification of individuals in questionable health. (R#
37-4 Pg ID 1475; Pg.ID 1497 Lns 8-12)
Correction Officer Coontz received first aid and CPR
Training. She testified,
Q And what did they teach you at corrections
school?
A SOPs
Q Standard Operating Procedures?
A Correct
Q For what?What kind of standard operating
procedures?
A I don’t understand your questions.
Q Well, are they teaching you how to book an
inmate, are they teaching you how to dress an
inmate, are they teaching how to search an
inmate, shower an inmate, identify when an
inmate has drugs, identify when an inmate

17
is sick, identify when an inmate is injured?
So what standard operating procedures are
they teaching you?
A They taught use how to do pat-downs,
they taught us CPR, first aid, self defense,
cuffing, escorting, report writing. That’s all
I can think of.
Q Okay. CPR and first aid, is that at the CO
school in Richland? Is that the only medical
training they offered?
A I believe so.
(R# 37-6 Pg. ID 1640 Ln 23-24; Pg. ID 1641 Lns 1-22)
Correction Officer O’Brien received first and CPR
Training (R# 36-10 Pg. ID 545 Lns 4-18) None of the
employees of the Defendant Delaware County Sheriff
received any training in how to identify an individual who
is in questionable health and needs medical assistance,
although the Sheriff’s policy defines them all as “health
trained personnel” and requires them to be able to identify
individuals in “questionable health”.
Rhianna’s condition worsened at the jail with the
lack of water, lack of antibiotics and lack of care.
Upon arrival, Rhianna showered. During her shower,
Rhianna had an uncontrollable bowel movement and
assistance had to be called to help Rhianna complete
her shower. (R# 37-6, Pg ID 1675, R# 49) There is no
information in the record, other than the recording of

18
the call for assistance in the shower and Officer Coontz
testimony related to this incident. (Id.) There is no
information in the record indicating that this information
was transmitted to the Defendant Correctional Healthcare
Companies, Inc.’s medical staff on duty at the time.
Following her shower, food was delivered to Rhianna
which she did not eat. No verbal contact with Rhianna
was had again until the morning of February 21, 2016
at 3:30 am an LPN accompanied by a correction officer
documented that Rhianna was “moaning and groaning”.
(R# 51, Pg ID 2180) The LPN asked the Correction Officer
to open the door and the LPN spoke with the patient who
reported abdominal pain from being unable to “poop”.
(R#51, Pg. ID 2180) The LPN further document that the
patient wanted to go to the emergency room (ER). (R#
51 Pg. ID 2180) The LPN did not measure the patient’s
vital signs or examine her abdomen. (R# 51 Pg. ID 2180)
The LPN did not contact Dr. Mitchell or send Rhianna to
the emergency room. (R# 51 Pg.ID 2180) The Correction
Officer and the LPN encouraged Rhianna to drink more
water. (R# 51 PgID 2180) Rhianna informed the LPN that
she could not reach the water pitcher on the floor. (R#51
PgID 2180) The LPN provided water to Rhianna. (R# 51
Pg.ID 2180) The LPN made a specific note that Rhianna
was crying. (R# 51 PgID 2180)
Rhianna Filichia became unresponsive in her cell
and paramedics were called.
There was no interaction between Rhianna and
the correction officers or nursing staff until 8:20 the
next evening just minutes before Rhianna became
unresponsive. (R# 51 PgID 2175-2181; R# 52 Pg.ID
2367-2380) At approximately 8:20 pm on February 21,

19
2016, Terri Bloomfield LPN entered Rhianna’s room to
administer medication accompanied by Officer O’Brien.
(R# 49, R#52 Pg.ID 2367-2381) After placing medication
in her mouth while Rhianna was lying down, Rhianna
attempted to take a sip of water. (R# 49, #38, R# 52 PG
ID 2367-2381) Rhianna then began to vomit a green matter
from her mouth and nose, later determined to be bile.
(R#49, R#38, R# 52 Pg. ID 2367-2381) Shortly thereafter,
Charidy Lupu LPN arrived and noted that the patient
was moaning. (R#36-13 Pg. ID 873-874) Charidy Lupu
LPN noted that Rhianna did not have a pulse. Charidy
Lupu alerted Officer O’Brien to call an ambulance. (R#49,
R#38) At 8:24 pm, Officer O’Brien called for an emergency
squad. Charidy Lupu advised Officer Williams to retrieve
the crash cart and Rhianna was moved out of the cell to
begin cardiopulmonary resuscitation (CPR). (R# 36-13
Pg. ID 873-874) An automatic external defibrillator (AED)
was applied to Rhianna’s chest and advised no shock. (R#
36-13, Pg. ID 873-874) The AED advised to start CPR.
(R# 36-13 PgID 873-874)
At approximately 8:30 pm the emergency squad
arrived and left at approximately 8:48 pm. (R# 49, #38)
Videotapes as well as Jail Direction Pfan’s statement to
James Egbert during the death notification indicate that
Rhianna’s abdomen was grossly distended such that one
of the emergency medical responders inquiring about her
medical history comment that she was obviously pregnant.
(R# 38) Rhianna was transported to Grady Memorial
Hospital. At 9:22 pm, Rhianna was pronounced dead.
(R#36-15 Pg. ID 937-940)

20
Rhianna Filichia’s death was the result of peritonitis.
The Deputy Coroner Dr. MacDowell concluded that
the cause of death was peritonitis. (R# 36-15; R# 36-14 Pg
ID 915) He has performed approximately thirty autopsies
annually and his findings have never been reversed.
(R# 36-14 Pg. ID 891) Peritonitis is an inflammation
of the abdominal cavity that can result in infection and
death. (R#36-14 Pg.ID 915) He concluded there could
have been no other cause of death. (R#36-14 Pg. 42 Lns.
8-13) Defendant did not present any expert testimony
disputing the report of Dr. MacDowell. Finally, the other
expert reports provided by the dismissed Defendant have
multiple differing conclusions regarding the cause of
death. Finally, Dr. Tasos Manokas, agreed with the finding
of Dr. MacDowell. (R#54-2 Pg ID 2450-2451)
James Egbert when notified of Rhianna’s death wailed
“I told them not to take her”.
Detective Overly, an employee of the Delaware County
Sheriff’s Office, along with the jail Director Pfan traveled
to James Egbert’s home on the evening of February 21,
2016, to make the death notification (R#38, R#49) During
the notification, Pfan makes several admissions regarding
Rhianna’s behavior including that Rhianna was not eating
and that her abdomen was severely distended. (R# 38,
R #49) During the notification, Egbert can be heard
spontaneously shouting, “I told them not to take her”.
(R# 38, R #49) In explaining his statement to Detective
Overly, he explained that the reported her condition to
Officer Mohnsen and begged him not to take her to the
jail because of her illness and he was ignored. (R#38)

21
ARGUMENT
The Decision of the District Court and the Sixth
Circuit conflicts with an earlier decision and has
departed from the accepted and usual course of
judicial proceedings.
There was no training beyond CPR and First Aid
provided to any employee of Sheriff Russel Martin
to allow employees, specifically deputy sheriffs or jail
personnel, to be able to identify individuals who are in
questionable health who need medical attention from a
doctor. Despite this, the Sheriff required his employees
to identify individuals in questionable health to determine
if they should be first taken to the hospital. Because they
received no training regarding how to identify someone
with a serious medical condition, Rhianna Filichia died
in their jail.
42 USC Section 1983 provides a cause of action against
every person who, under color of state law, subjects or
causes to be subjected, an individual to the deprivation
of any rights, privileges, or immunities secured by the
United States Constitution or federal law. See Civil
Rights Act of 1871, REV. STAT. § 1979, 42 USC Section
1983. Political subdivisions of a state (such as Delaware
County) are “persons” within the scope of Section 1983.
Monell v. N.Y. City Dept. of Social Services, 436 U.S. 658,
690, 98 S.Ct. 2018, 56 L.Ed. 2d 611 (1978); Holloway v.
Brush , 220 F.3d 767, 772 (6th Cir. 2000) This follows from
the underlying purpose of the statute, which protects
individual rights by punishing the infringement of those
rights in order to compel a change in policy by those in
position to effectuate such a change. Monell 436 U.S. 686-

22
89; Pembaur v. City of Cincinnati , 475 US 469, 490, 106
S.Ct. 1292, 89 L.Ed.2d 452 (1986) A plaintiff attempting
to establish municipal liability pursuant to Section 1983
may demonstrate three categories of “official policy”: (1)
an express policy or custom of the municipality; (2) a final
policymaker’s conduct; or (3) the municipality’s failure
to train employees. Board of County Comm’rs of Bryan
County OK v. Brown, 520 U.S. 397, 397-398, 117 S.Ct. 1382,
137 L.Ed. 2d 626 (1997)
To succeed on a claim of failure to train, Plaintiff must
establish (1) the Delaware County training program was
inadequate for the tasks the officers were required to
perform; (2) the inadequacy was the result of Delaware
County’s deliberate indifference; and (3) the inadequacy
was closely related to or actually caused the injury. Russo
v. City of Cincinnati, 953, F.2d 1036, 1046 (6th Cir. 1992)
The Supreme Court has held that “evidence of a single
violation of federal rights, accompanied by a showing that
a municipality has failed to train its employees to handle
recurring situations presenting an obvious potential
for such a violation, could trigger municipal liability.”
Board v. County Comm’rs v. Brown, 520 U.S. 397, 409,
117 S.Ct. 1382, 137 L.Ed. 626 (1997) One example of
such a circumstance is a city’s failure to train its police
officers in the use of deadly force, because city officials
know that their officers will need to use such force when
attempting to arrest fleeing felons. City of Canton , Ohio
v. Harris, 489 U.S. 379, 390 In a jail setting, the failure of
a medical care provider “to train medical personnel how
to deal with medical emergencies relating to diabetes
could foreseeably lead to terrible consequences, including
death[,]” and thus satisfied this deliberate indifference
standard. Lawson v. Whitley County, 2012 U.S. Dist.

23
LEXIS 12184 (E.D. Kentucky Jan 31, 2012) Further, in
a nearly identical case were an individual died of sepsis,
the United States District Court for the Western District
of Kentucky in Jimenez v. Hopkins County No. 4:11 CV
00033, 2014 WL 176478 found that an identical system
to that of Delaware County was deliberately indifferent
because it failed to train its employees beyond the skills of
CPR and First Aid. The Sixth Circuit later affirmed that
same finding in Shadrick v. Hopkins County, et al., 805
F.3d 724 In so doing, the trial court determined as follows:
The Court finds that Plaintiff has produced
sufficient evidence for a reasonable jury
to find that the deputy jailers received
inadequate training regarding how to
observe and assess inmates medical needs
and respond to these needs, how to determine
what medical symptoms and needs should be
reported to medical, and the deputy jailer’s
role in observing inmates that are located
both in the 26-bed medical segregation unit
and the detox unit. A review of HCDC Policies
provided to the Court reflect that HCDC does
not have jail policies providing any guidance
to deputy jailers as to what constitutes
a medical emergency, what constitutes a
medical symptom or condition that should
be reported to medical, and what to [*50] do
in the event that the medical staff does not
respond. The deputy jailers testified that they
had received only training in CPR and first
aid. The deputy jailers further testified that
when they conduct the required observation
of inmates in the medical segregation unit,

24
the deputy jailers merely check the inmates
to make sure they are breathing, moving, or
not bleeding. (See, e.g., Dep. of Potocnick at
21.) In fact, often times the deputy jailers
are not even aware of why the inmate is in
medical segregation.
The County Defendants contend that HCDC’s
medical policy has been found to comply with
all regulations of the Kentucky Department
of Corrections. County Defendants also
argue that the Department of Corrections
signed off on the HCDC policy manual and
dictated the training each deputy jailer
was required to attend. (Plaintiff’s Reply
at 10.) That the deputy jailers received the
bare minimum training required by the
state does not mean that they received
adequate training in this particular area of
jail administration. If proof of completion
of state required minimum training was
sufficient to defeat a failure to train claim,
such claims would virtually cease to exist.
Under these [*51] circumstances, the
Court finds that proof of the successful
completion of state mandated training alone
is insufficient to demonstrate adequate
training regarding medical needs in the
prison setting. See Thomas v. City of Shaker
Heights, 2006 U.S. Dist. LEXIS 2095, 2006
WL 160303 (N.D. Ohio Jan 20, 2006) (rejecting
similar argument that officers training was
adequate because it was based on template
provided by the state). Considering that SHP

25
nurses rely upon the deputy jailers to report
medical needs or emergencies (Keller Dep.
at 29), but that the deputy jailers receive no
training regarding when to notify medical,
a reasonable jury could conclude that the
training in this area was inadequate to the
tasks that the deputy jailers were required
to perform.
Plaintiff has also produced sufficient
evidence to satisfy the deliberate indifference
prong. There are two situations that justify
a conclusion that a municipality’s failure
to train was deliberately indifferent. “One
is failure to provide adequate training
in light of foreseeable consequences that
could result from the lack of instruction.”
Brown v. Shaner, 172 F.3d 924, 931 (6th Cir.
1999) The other “is where the [municipality]
fails to act in response [*52] to repeated
complaints of constitutional violations by
its officers.” Id. Plaintiff has produced no
evidence of repeated complaints regarding
deputy jailers monitoring inmates in detox
or medical segregation at HCDC, therefore
the failure to train claim must proceed under
the first scenario.
The record reflects that other than CPR and
first-aid training, “the County does not train
officers to look for or be aware of symptoms
of physical illness, how to recognize and
respond to medical needs, how to document
requests from inmates for medical care,

26
or how to pass on medical concerns to jail
nursing staff.” Morris v. Dallas County, 960
F.Supp.2d 665, 2013 US Dist. LEXIS 85593
(N.D. Tex June 18, 2013) The jail’s personnel
and procedures are structured so that the
deputy jailers provide the link between
inmates and medical. Id. In fact, the nurses
testified that they must rely on the deputy
jailers to notify medical of any significant
medical problems with an inmate. (Keller
Dep. at 29.) Despite this, the deputy jailers
who work both the 100 walk and the 500
walk are not provided any training on how
to monitor, observe, [*54] and determine
potential medical needs of the inmates and
how to respond to those needs. Thus, Plaintiff
has produced sufficient evidence to satisfy
the deliberate indifference prong.
The Court further finds that Plaintiff
has produced sufficient evidence that the
inadequacy of the training was related to or
actually caused the injury to Butler. Because
the deputy jailers “are the only persons in
somewhat regular and direct contact with
the inmates,” and because HCDC provides
no training to the deputy jailers in relation
to the tasks they must perform, Plaintiff
has raised a fact question whether Butler’s
injury “was a predictable consequence of the
absence of training.” (Citation omitted)
Jimenez v. Hopkins County No. 4:11 CV 00033, 2014 WL
176478, pgs. 48-55.

27
As set forth above, none of the employees of the
Delaware County Sheriff received any training on how
to identify an individual in questionable health. To be
sure, the only training received was basic first aid and
CPR training. While Officer O’Brien testified that at least
one time, someone explained to her how to complete an
intake form for answering standard medical questions, no
one ever trained her beyond that. Despite knowing that
individuals in questionable health could die, none of the
employees of the Delaware County Sheriff were trained on
how to identify that possibility. Further, Deputy Mohnsen
testified that he knew Filichia didn’t look well and didn’t
take her to hospital as required by policy. Furthermore,
the serious health condition here, peritonitis, which is
inflammation of the abdomen is directly related to the
symptoms which were being exhibited Rhianna with
respect to her abdominal pain and inability to move; her
uncontrollable bowel and her multiple requests to go the
hospital. The failure to train employees on these signs
led directly to Rhianna’s death. If that were not enough
evidence of deliberate indifference, the employees of
Delaware County showed their deliberate indifference for
Rhianna by calling her a “pharmacy snatch” over their
two-way radio as she struggled to stay alive. Finally, had
the employees of the Delaware County Sheriff simply
followed its written policies and delivered Filichia to the
hospital on Saturday morning as requested instead of the
jail, she would not have died. But according to Detective
Overly, that policy didn’t apply to them.
Despite this the District Court argues and the Sixth
Circuit agrees that the employees were trained beyond
CPR and First Aid because,

28
Additionally, to the extent the written
policy Plaintiff relies on was operative
during the relevant time period, it states
that, upon intake and completion of an
initial assessment, corrections officers are
instructed to notify the shift supervisor
and the nurse if the officer is uncertain of
a detainee’s physical health. Policy, ECF
No. 50, PAGEID #2037. The policy further
states that, after intake, any medical
emergency or any medical issue outside a
correction officer’s scope of competency
should be forwarded to the nurse on duty.
Id. At PAGEID #2036. Medical emergencies
are defined in the policy as “acute illness or
an unexpected health need that cannot be
deferred until the next scheduled sick call”.
Id. At PAGEID #2039. Corrections officers
are trained to contact the nurse immediately
if they believe an inmate is suffering from an
emergency medical condition, id at PAGEID
#2039, and to use the “Signal 99 radio code
to advise all available personnel of the
emergency where it is located.”
See 41a-45a. Curiously though, none of that training has
anything to do with identification of a serious medical
condition. None of the deputies or correction officers were
trained to determine the following are serious health
conditions though all of these were observed as conditions
of Filichia and not reported to anyone:
• Severe abdominal pain

29
• Crying
• Uncontrollable bowel movements while showering
/ diarrhea
• No eating
• No movement or slow movement
• Distended abdomen
• Bloating
• Moaning
In addition, to having no training on how to identify a
serious medical condition (the same issue discussed detail
in Jimenez) None of the deputies or correction officers
followed the policies in place at the time of Filichia’s death
and the following policies (which are relied upon by the
District Court and the Sixth Circuit to determine that
sufficient training has been done) were not followed / forms
not completed because there was no training requiring
completion:
• If a Person’s Physical health is questionable, they
arresting agency shall take the person to the
hospital for evaluation before acceptance.
• Correction officers must perform a medical
receiving screening (Intake Questionnaire) R#
51, Pg.ID 2141-2152
• A Health Screening Form shall be completed

30
• A Pathway Shall be Completed
Each of the items above, although allegedly required by
policy and allegedly part of training at least as asserted by
the District Court, although there was no testimony that
deputies or correction officers were trained to complete
these items, were not completed. The District Court
makes the leap that because the policies were in place
Another substantial piece of evidence seemingly
ignored by the Sixth Circuit and the District Court is the
admission by Defendant that Filichia was a drug risk. That
Defendant ordered Filichia restrained in the particular
holding cell in which she died, because of her drug issues.
That Defendant ordered her water shut off because of
her drug issues. However, Filichia was not placed on any
formal watch related to drugs, specifically withdrawal,
again a serious medical condition. Ignored and no training
given recognition of the interaction of their orders and
serious medical conditions.
While the Sixth Circuit and the District Court believe
that the mere existence of policies is sufficient evidence
that Defendant employees were trained to identify
serious medical conditions, in practice it did not occur.
There is no evidence the employees were ever trained to
follow those policies. Defendant didn’t identify any and
neither did the Court. Further, the evidence establishes
in practice the policies the District Court referred to as
evidence of “training” are not followed. It also establishes
the employees were not trained to follow them. The only
evidence provided establishes that the only training given
to these employees and acknowledged by them was CPR
and First Aid and they are to touch base with medical

31
if there is a serious medical problem, just like Jimenez.
There were multiple signs of serious medical problems,
like Jimenez that were ignored by Delaware resulting in
Filichia’s death. Finally, in addition to those issues, and
unlike Jimenez, Filichia was labeled a drug risk and her
water was shut off. So in addition to her serious medical
condition which is neither being observed nor discussed,
mostly ignored, she is at risk for withdrawal and there’s no
watch; no forms related to potential withdrawal completed.
That’s because there’s no training done for the potential
lethal results of drug withdrawal. The District Court’s
decision does not consider the facts that have been outlined
in detail above. The District Court ignores it in favor of
sighting to written policies which give no indication on
how to identify a serious medication condition. Further,
The District Court does not give citation to one item in
the record establishing that any training was done on the
policies; and then states that there is a contract which
claims additional medical training shall be given annually,
but none of the officers or deputies testified that they
received any. In practice, there is no training in Delaware
County which would allow its officers or employees to
determine whether an individual has a serious medical
condition or when to communicate that to anyone who
has medical training. The failure to properly train these
officers and at the same time expect them to identify a
serious medical condition is deliberately indifferent. It
caused Rhianna Filichia’s death. And another death just
hours later in the same jail. The decision of the Sixth
Circuit is incorrect.

32
CONCLUSION
The decision of the Sixth Circuit and the District
Court directly conflicts with a previous decision in
Jimenez and Shadrick. It is a departure from the usual
course of judicial proceedings. The Petition for Certiorari
should be granted.
			Respectfully submitted,
Steven D. Rowe
Counsel of Record
Kemp, Schaeffer & Rowe Co., LPA
88 West Mound Street
Columbus, Ohio 43215
(614) 224-2678
steven@ksrlegal.com
Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE SIXTH
CIRCUIT, FILED NOVEMBER 14, 2019
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-3096
TERESA BERRY, ADMINISTRATOR OF
THE ESTATE OF RHIANNA FILICHIA,
Plaintiff-Appellant,
v.
DELAWARE COUNTY SHERIFF’S OFFICE,
Defendant-Appellee.
November 14, 2019, Filed
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF OHIO
BEFORE: MERRITT, DAUGHTREY, and GRIFFIN,
Circuit Judges.
GRIFFIN, Circuit Judge.
After her daughter died while in jail, Teresa Berry
sued the Delaware County, Ohio Sheriff’s Office for

2a
Appendix A
violating her daughter’s civil rights under 42 U.S.C.
§ 1983. This appeal presents two issues: (1) whether the
district court correctly granted summary judgment in
favor of defendant on Berry’s municipal liability claims
and (2) whether the district court abused its discretion in
denying Berry’s motion to vacate the judgment. For the
reasons stated below, we affirm.
I.
A.
Plaintiff, Teresa Berry, is the administratrix of
the estate of her daughter, Rhianna Filichia. Filichia
suffered from diverticulosis, a condition in which pouches
(diverticula) form in the walls of the intestines. She also
suffered from chronic attacks of diverticulitis, which is
when diverticula become inflamed or infected.
In 2013, Filichia was charged in Delaware County,
Ohio for driving under the influence and failing to stop.
She pleaded guilty to those charges and was ordered to
spend time in jail. Filichia was permitted to serve the jail
time during weekends.
Filichia was scheduled to serve some of her remaining
sentence on February 6 and 7, 2016, but she failed to
appear due to her diverticulitis. A warrant for her arrest
was issued on February 9, 2016. Between February 6
and 21, 2016, Filichia went to her doctor and the hospital
several times due to pain caused by her diverticulitis.

3a
Appendix A
On February 20, 2016, Deputy Darren Mohnsen and
Deputy Nathan Hysell went to Filichia’s residence to
execute a warrant for her arrest. Filichia’s boyfriend,
James Egbert, answered the door. Before Deputy
Mohnsen had arrived, Filichia had told Egbert that she
was in pain. Egbert told the deputies about Filichia’s
medical condition and that she was in pain. He also asked
the deputies if Filichia could go to the emergency room
rather than jail. The deputies, however, said that Filichia
had to go to jail, but that there was a nurse at the jail.
At the jail’s intake, a licensed practical nurse evaluated
Filichia for confinement. The licensed practical nurse
determined that Filichia was fit for confinement. Roughly
thirty-five hours later, Filichia became unresponsive.
Despite efforts to save her life, Filichia died.
B.
Plaintiff sued the Delaware County Sheriff’s Office
and six John Doe Officers from that office. She alleged,
among other things, that the Sheriff’s Office violated the
Eighth Amendment and 42 U.S.C. § 1983 by not giving
adequate medical training to its employees and, as a
result, faced municipal liability pursuant to Monell v. Dep’t
of Soc. Servs., 436 U.S. 658, 98 S. Ct. 2018, 56 L. Ed. 2d
611 (1978). She subsequently amended her complaint; she
dismissed the John Doe Officers, but added Correctional
Healthcare Companies, Inc.—the company that provided
medical services at the jail—as a defendant.

4a
Appendix A
The Sheriff’s Office moved for summary judgment.
It argued that the district court should grant its motion
for multiple reasons, including (1) the Sheriff’s Office was
not a suable party and (2) no reasonable juror could find
for plaintiff on her failure-to-train claim. In response,
plaintiff moved to substitute Delaware County Sheriff
Russell L. Martin for the Delaware County Sheriff’s
Office. The district court granted plaintiff’s substitution
motion on January 23, 2019. The court directed plaintiff
to “file her Second Amended Complaint within SEVEN
DAYS of this Opinion and Order.” Moreover, the district
court warned that “Failure to comply with this Opinion
and Order will result in the Amended Complaint being
dismissed, without additional notice, for naming a
party that is not sui juris.”
On February 1, 2019—two days after the amendment
deadline—the district court granted the Sheriff’s Office’s
summary judgment motion and dismissed plaintiff’s
complaint with prejudice. It reasoned that although it had
granted plaintiff’s motion to substitute a suable party
into the lawsuit, plaintiff failed to do so. Alternatively,
the district court determined any amendment would be
futile because plaintiff failed to prove that there were
any genuine disputes of material fact that showed the
Sheriff was liable under Monell. Plaintiff moved to vacate
the judgment, which the district court denied. Plaintiff
timely appeals.

5a
Appendix A
II.
The main issue on appeal is whether the district court
correctly granted summary judgment in the Sheriff’s
Office’s favor. “We review de novo a district court’s
decision on [a] motion[] for summary judgment.” Burnette
Foods Inc. v. U.S. Dep’t of Agric., 920 F.3d 461, 466 (6th
Cir. 2019) (citation omitted)). “Summary judgment is
proper ‘if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to
judgment as a matter of law.’” Id. at 466-67 (quoting Fed.
R. Civ. P. 56(a)). The moving party must first show that the
nonmoving party failed to “establish the existence of an
element essential to . . . [the nonmoving] party’s case, and
on which . . . [the nonmoving] party will bear the burden
of proof at trial.” Bormuth v. Cty. of Jackson, 870 F.3d
494, 503 (6th Cir. 2017) (en banc) (quoting Celotex Corp. v.
Catrett, 477 U.S. 317, 317, 106 S. Ct. 2548, 91 L. Ed. 2d 265
(1986)). “Once the moving party has met the initial burden
of showing the absence of a genuine dispute of material
fact, the non-moving party must then ‘come forward with
specific facts showing that there is a genuine issue for
trial.’” Baker v. City of Trenton, 936 F.3d 523, 529 (6th
Cir. 2019) (quoting Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587, 106 S. Ct. 1348, 89 L. Ed.
2d 538 (1986)). “The non-moving party must ‘do more than
simply show that there is some metaphysical doubt as to
the material facts.’” Id. at 529 (quoting Matsushita, 475
U.S. at 586). “The mere existence of a scintilla of evidence
in support of the plaintiff’s position will be insufficient;
there must be evidence on which the jury could reasonably
find for the plaintiff.” Id. at 529 (quoting Anderson v.

6a
Appendix A
Liberty Lobby, Inc., 477 U.S. 242, 252, 106 S. Ct. 2505,
91 L. Ed. 2d 202 (1986)).
A.
As an initial matter, we conclude that the district
court correctly granted summary judgment in favor of the
Sheriff’s Office because plaintiff failed to name a suable
party. Berry does not contest that decision, and she has
not directed us to any record evidence that suggests she
has included a suable defendant in her lawsuit.
B.
The crux of this appeal is plaintiff’s attack on the
district court’s alternative reason for granting summary
judgment in the Sheriff’s Office’s favor—that plaintiff
failed to establish a “failure-to-train” claim under Monell.
As set forth below, we agree with the district court that
this alternative path additionally supports its grant of
summary judgment.
“[U]nder § 1983, local governments are responsible
only for their own illegal acts. They are not vicariously
liable under § 1983 for their employees’ actions.”
D’Ambrosio v. Marino, 747 F.3d 378, 386 (6th Cir. 2014)
(emphasis added) (quoting Connick v. Thompson, 563 U.S.
51, 60, 131 S. Ct. 1350, 179 L. Ed. 2d 417 (2011)). “Instead,
a municipality is liable under § 1983 only if the challenged
conduct occurs pursuant to a municipality’s ‘official policy,’
such that the municipality’s promulgation or adoption of
the policy can be said to have ‘cause[d]’ one of its employees

7a
Appendix A
to violate the plaintiff’s constitutional rights.”1 Id. (quoting
Monell, 436 U.S. at 692).
“Official municipal policy includes the decisions of a
government’s lawmakers, the acts of its policymaking
officials, and practices so persistent and widespread as to
practically have the force of law.” Id. (quoting Connick, 563
U.S. at 61). To show the existence of a municipal policy, a
plaintiff must properly allege at least one of the following:
(1) the existence of an illegal official policy or
legislative enactment;
(2) that an official with final decision making
authority ratified illegal actions;
(3) the existence of a policy of inadequate training
or supervision; or
1. In Winkler v. Madison County, however, we recognized
that it is an unsettled question whether finding a municipality
liable under § 1983 requires proof that an individual defendant
committed a constitutional violation. 893 F.3d 877, 899-901
(6th Cir. 2018). The district court acknowledged the unsettled
question and assumed either (1) Deputy Mohnsen had committed
a constitutional violation by being deliberately indifferent to
Filichia’s serious medical needs or (2) plaintiff had established
a constitutional violation, but did not need to establish that an
individual municipal employee had committed a constitutional
violation. Because this question is unsettled and answering it is not
necessary to resolve this appeal, we assume—without deciding—
that plaintiff has made whatever showings are necessary on this
issue and resolve the appeal on other grounds.

8a
Appendix A
(4) the existence of a custom of tolerance [of] or
acquiescence [to] federal rights violations.
D’Ambrosio, 747 F.3d at 386 (citation omitted). Plaintiff
relies solely on the inadequate training method.
Inadequate training can be the basis for a § 1983
municipal liability claim when it “amounts to deliberate
indifference to the rights of persons with whom the police
come into contact.” Roell v. Hamilton Cty., Ohio/Hamilton
Cty. Bd. of Cty. Comm’rs, 870 F.3d 471, 487 (6th Cir.
2017). But “[a] municipality’s culpability for a deprivation
of rights is at its most tenuous where a claim turns on
a failure to train.” Connick, 563 U.S. at 61. To succeed
on an inadequate training claim, a plaintiff must prove:
“(1) that a training program is inadequate to the tasks
that the officers must perform; (2) that the inadequacy is
the result of the [municipality’s] deliberate indifference;
and (3) that the inadequacy is closely related to or actually
caused the plaintiff’s injury.” Roell, 870 F.3d at 487
(quoting Brown v. Chapman, 814 F.3d 447, 463 (6th Cir.
2016)). Plaintiff fails to show a genuine dispute of material
fact on all three requirements.
1.
Plaintiff argues that the Sheriff’s Office inadequately
trained its officers “to identify individuals in questionable
health.” That is her contention because the only medical
training the officers receive concerns CPR and first aid.
We recently rejected an equivalent contention in Winkler
v. Madison County and do so again here.

9a
Appendix A
The plaintiff in Winkler argued that “there [wa]s no
evidence that any jailer received training on anything
other than basic first aid and CPR.” 893 F.3d at 903. But
we rejected that contention because the Winkler plaintiff
“presented no proof to show that this inadequacy resulted
from deliberate indifference.” Id. at 902. That is, there
was “no basis to conclude that the County exhibited
deliberate indifference by failing to provide additional
medical training to jail personnel” beyond CPR and first
aid training. Id. at 903.
So too here. Plaintiff concedes that the officers
in this case, like the officers in Winkler, had training
on CPR and first aid. And she concedes that “Deputy
Mohnsen acknowledge[d] that he believed Filichia to be
in questionable health when he delivered her to the jail
during his discussions with the [licensed practical nurse].”
In other words, plaintiff concedes that Deputy Mohnsen
did precisely what he should have done—he perceived that
something might be medically wrong with Filichia, and
he conveyed that to a medical professional. 2 Plaintiff has
identified no record evidence that disputes (1) that Deputy
Mohnsen had undergone first aid and CPR training or (2)
that he perceived Filichia to be in questionable health and
conveyed his perception to a medical professional.
2. In similar circumstances, we have determined that police
officers are entitled to rely on assessments of medical professionals
regarding whether an inmate should be transported to a hospital.
See, e.g., Spears v. Ruth, 589 F.3d 249, 255 (6th Cir. 2009)
(“Although [the police officer] admits that [the inmate] told him
that he had smoked crack cocaine, [the police officer] was entitled
to rely on the EMTs’ and the jail nurse’s medical assessments
that [the inmate] did not need to be transported to the hospital.”).

10a
Appendix A
Shadrick v. Hopkins County, Kentucky, 805 F.3d 724
(6th Cir. 2015), is of no help to plaintiff. There, a county
contracted with “a private, for-profit corporation, to
provide medical services to inmates” at a detention center.
Id. at 728-29. We determined that the private medical
services provider’s training program was inadequate.
Id. at 740 (citation omitted). But Shadrick’s inadequacyof-training analysis concerned the adequacy of training
provided to licensed practical nurses, not police officers.
Id. at 740-42. The training that officers receive (when
they are not the primary medical care providers) and
the training that licensed practical nurses receive (when
they are the primary medical care providers), along with
the tasks they must perform, are meaningfully different.
Accordingly, plaintiff has not created a genuine
dispute of material fact regarding whether Deputy
Mohnsen’s training was inadequate to the tasks he had
to perform.
2.
There are two ways to prove that the inadequacy of a
training program is the result of a municipality’s deliberate
indifference. A plaintiff may prove (1) a “pattern of similar
constitutional violations by untrained employees” or (2)
“‘a single violation of federal rights, accompanied by a
showing that [the municipality] has failed to train its
employees to handle recurring situations presenting an
obvious potential’ for a constitutional violation.” Id. at 73839 (citations omitted). We address each method in turn.

11a
Appendix A
a.
“A pattern of similar constitutional violations
by untrained employees is ‘ordinarily necessary’ to
demonstrate deliberate indifference for purposes of
failure to train.” Connick, 563 U.S. at 62 (citation omitted).
Such a pattern is ordinarily necessary because “[u]ntil
the [municipality] had notice of persistent misconduct, it
did not have ‘the opportunity to conform to constitutional
dictates,’ nor could its inaction have caused the deprivation
of [plaintiff’s] constitutional rights.” D’Ambrosio, 747 F.3d
at 388 (quoting Connick, 563 U.S. at 63 n.7). Moreover,
“contemporaneous or subsequent conduct cannot establish
a pattern of violations that would provide ‘notice to
the [municipality] and the opportunity to conform to
constitutional dictates.” Connick, 563 U.S. at 63 n.7.
Additionally, the similarity must be particularized.
In Connick, the Supreme Court connected the notice
requirement not merely to the generalized type of
constitutional violation in dispute (Brady violations), but
rather to the specific way that the constitutional violation
happened. The Supreme Court determined that four prior
Brady violations did not place the district attorney’s office
on notice that its “training was inadequate with respect
to the sort of Brady violation at issue” in the case because
“[n]one of [the prior Brady violations] involved failure to
disclose blood evidence, a crime lab report, or physical
or scientific evidence of any kind.” Connick, 563 U.S. at
62-63. In short, the prior examples of wrongdoing must
violate the same constitutional rights and violate them in
the same way. See D’Ambrosio, 747 F.3d at 388 (noting that

12a
Appendix A
three prior improper trial comments were insufficient to
provide notice of Brady violations).
Plaintiff asserts that “another inmate . . . died the
same night as Filichia” and because of that death, she
concludes that “[t]here is evidence supporting [a] pattern,
which went unmentioned by the trial court.” To support
that contention, plaintiff cites the deposition transcript
of Deputy Rachel O’Brien. O’Brien testified—without the
highest degree of firmness—that another inmate did die:
Plaintiff’s Attorney: Has anyone other than Rhianna
Filichia died at the Delaware
County Jail?
O’Brien:

Yeah.

Plaintiff’s Attorney: Who?
O’Brien:

I don’t know. I know T ye
[Downard] did.

Plaintiff’s Attorney: A n d d o y o u k n o w t h e
circumstances of his death?
O’Brien:

All I -- I wasn’t there on shift
that day.

Plaintiff’s Attorney: Did he die the day before or the
day after Rhianna?
O’Brien:

I think it was the same night,
but I had gone home.

13a
Appendix A
Plaintiff’s Attorney: So he was there while you were
on shift?
O’Brien:

Yes.

Plaintiff’s Attorney: But he was alive?
O’Brien:

I don’t know.

Plaintiff’s Attorney: Well, were you not responsible
for watching him? Was he not
on medical watch?
O’Brien:

I was in booking that day.

This testimony is insufficient to establish a pattern of
similar constitutional violations. First, if the other inmate
died the same night as Filichia, O’Brien’s testimony is, at
best, evidence of contemporaneous conduct, which does
not provide notice. Connick, 563 U.S. at 63 n.7. Second,
O’Brien’s testimony does not provide any information
regarding how the other inmate died. Without more
information—which plaintiff has the obligation to provide
because she is the nonmovant, Bormuth, 870 F.3d at
499 (citation omitted)—O’Brien’s testimony does not
demonstrate that the circumstances of Filichia’s death
and those of the other inmate are similar enough for the
purposes of establishing a pattern. Therefore, plaintiff’s
pattern theory fails to establish a genuine dispute of
material fact regarding whether municipal deliberate
indifference caused the alleged training inadequacy.

14a
Appendix A
b.
In addition to the pattern theory, a plaintiff may
establish that a municipality’s training program is
inadequate because of deliberate indifference by proving
“a single violation of federal rights, accompanied by a
showing that [the municipality] has failed to train its
employees to handle recurring situations presenting an
obvious potential” for the violation of constitutional rights.
Shadrick, 805 F.3d at 739 (quoting Bd. of Cty. Comm’rs
of Bryan Cty., Okla. v. Brown, 520 U.S. 397, 409, 117
S. Ct. 1382, 137 L. Ed. 2d 626 (1997)). This method of
proving that deliberate indifference caused a training
program’s inadequacy is available “in a narrow range
of circumstances” in which a violation of federal rights
“may be a highly predictable consequence of a failure to
equip [employees] with specific tools to handle recurring
situations.” Id. at 739 (citation omitted).
The district court ruled that plaintiff “[could not]
prevail under the ‘single incident’ theory.” From the
district court’s perspective, “[i]n Winkler, the Sixth
Circuit rejected a theory virtually identical to [p]laintiff’s,
concluding that the assertion that jail personnel received
only first aid and CPR training was alone insufficient
to ‘explain how the quality of the medical training
provided put the County on notice of the likelihood
that jail personnel would respond inadequately to an
inmate’s medical emergency.’” (quoting Winkler, 893
F.3d at 903). “Because the evidence showed that the third
party’s medical staff was available to jail personnel for
consultation and that jail personnel indeed contacted that

15a
Appendix A
staff regarding the decedent’s medical complaints,” the
Winkler court “found ‘no basis to conclude that the County
exhibited deliberate indifference by failing to provide
additional medical training to jail personnel.’” (quoting
id.) The district court was persuaded that the facts in this
case closely mirrored those in Winkler: “Plaintiff fails
to explain how the medical training [that the Sheriff’s
Office’s] employees received put Delaware County on
notice of the likelihood that jail personnel would respond
inadequately to an inmate’s medical emergency.” “This is
especially true where there is no evidence that [contracted
medical] staff was, as a matter of policy, unavailable to
jail staff for consultation.” The district court’s analysis
of Winkler on this issue is persuasive and we approve it.
To prove that deliberate indifference caused the
inadequacy of a municipality’s training program, the
plaintiff in Winkler—like Berry here—argued that “there
[wa]s no evidence that any jailer received training on
anything other than basic first aid and CPR.” 893 F.3d
at 903. The Winkler plaintiff noted that “the jailers were
the only medical providers at the jail all but 40 hours per
week.” Id. The Delaware County Jail, however, has even
more in-person medical coverage; it has nursing coverage
24 hours a day, seven days a week. In Winkler, the contract
“medical professionals were contacted multiple times with
regard to [the decedent’s] complaints of stomach pain.”
Id. On those facts, we concluded there was “no basis
to conclude that the [municipality] exhibited deliberate
indifference by failing to provide additional medical
training to jail personnel.” Id.

16a
Appendix A
The same is true here. The nurses were contacted
about Filichia’s abdominal pain and the nurses had
multiple interactions with Filichia. The contract medical
professionals in Winkler were “available to jail personnel,
either in person or by phone, for consultation about an
inmate 24 hours a day, 7 days a week.” Id. As previously
noted, the Delaware County Jail has even more in-person
medical coverage with in-person nursing coverage all day,
every day. Because the relevant facts of this case mirror
Winkler’s so closely, we conclude that only having CPR
and first-aid training does not create a genuine dispute of
material fact regarding whether deliberate indifference
caused the alleged inadequacy of the Sheriff’s Office’s
training program.
3.
On a failure-to-train claim, a plaintiff must prove—
among other things—“that the [training’s] inadequacy is
closely related to or actually caused the plaintiff’s injury.”
Plinton v. Cty. of Summit, 540 F.3d 459, 464 (6th Cir.
2008) (citation and internal quotation marks omitted). The
“closely related to” and “actually caused” phrases come
from City of Canton, Ohio v. Harris, 489 U.S. 378, 391,
109 S. Ct. 1197, 103 L. Ed. 2d 412 (1989). The Supreme
Court stated that a “training program must be closely
related to the ultimate injury” and that the plaintiff must
“prove that the deficiency in training actually caused the
police officers’ indifference to her medical needs.” Id.
“[A]dopt[ing] lesser standards of fault and causation,” the
Supreme Court warned, “would open municipalities to
unprecedented liability under § 1983. In virtually every

17a
Appendix A
instance where a person has had his or her constitutional
rights violated by a city employee, a § 1983 plaintiff will
be able to point to something the city ‘could have done’ to
prevent the unfortunate incident.” Id.
On the causation issue, the district court framed the
question as whether plaintiff identified any “evidence
suggesting that either Deputy Mohnsen’s or any other
jail personnel’s inability to identify Filichia’s questionable
health le[d] to her injury.” The district court answered
that question in the negative:
[T]he video evidence reveals that one of
the first things Deputy Mohnsen says upon
entering the jail with Filichia is that he needs
to speak to a nurse. When [licensed practical
nurse] Bloomfield arrives, Deputy Mohnsen
immediately explains that Filichia had medical
issues involving pain in her abdomen, had
recently been to the hospital, had a colonoscopy
scheduled for later in the week, and that she
had brought her medications and hospital
discharge paperwork with her. Thus, Deputy
Mohnsen had identified that Filichia’s health
was questionable, regardless of the training
he received.
Additionally, the district court noted that “[p]laintiff d[id]
not specify any other corrections officer who interacted
with Filichia at the jail” and “failed, during the interaction,
to recognize that Filichia needed medical attention due
to inadequate training, and failed to refer Filichia for

18a
Appendix A
medical attention.” The district court’s evaluation of this
issue is sound and we endorse it.
Plaintiff has not identified record evidence that
demonstrates that the allegedly deficient training
caused Deputy Mohnsen to be deliberately indifferent
to Filichia’s medical needs. Plaintiff fails on this point
because Deputy Mohnsen was not indifferent to Filichia’s
medical needs, much less deliberately indifferent. As
plaintiff acknowledges, once Deputy Mohnsen and
Filichia reached the jail, he contacted a licensed practical
nurse and conveyed that he believed that Filichia was
in questionable health. His conduct was precisely the
opposite of deliberate indifference. Additionally, plaintiff
has not identified record evidence that suggests other jail
personnel (1) interacted with Filichia, (2) failed—because
of inadequate training—to recognize that Filichia needed
medical attention, and (3) failed to refer Filichia for
medical attention. Accordingly, plaintiff has not identified
a genuine dispute of material fact regarding whether the
training’s alleged inadequacy was closely related to or
actually caused Filichia’s injury.
III.
The second issue on appeal is the district court’s denial
of plaintiff’s motion to vacate the judgment. “A district
court’s grant of post-judgment relief under [Federal]
Rule [of Civil Procedure] 60(b) is reviewed for an abuse of
discretion.” Blue Diamond Coal Co. v. Trustees of UMWA
Combined Ben. Fund, 249 F.3d 519, 524 (6th Cir. 2001)
(citation omitted). “A district court abuses its discretion

19a
Appendix A
if it bases its ruling on an erroneous view of the law or
a clearly erroneous assessment of the evidence.” United
States ex rel. Tenn. Valley Auth. v. 1.72 Acres of Land in
Tenn., 821 F.3d 742, 748 (6th Cir. 2016) (citation omitted).
Additionally, for an abuse of discretion to be present, there
must be “a definite and firm conviction that the trial court
committed a clear error of judgment.” Blue Diamond
Coal, 249 F.3d at 524 (citation omitted). Moreover, “relief
under Rule 60(b) is ‘circumscribed by public policy favoring
finality of judgments and termination of litigation.’” Id.
(citation omitted).
“On motion and just terms,” Rule 60(b) authorizes a
district court to “relieve a party or its legal representative
from a final judgment, order, or proceeding for the
following reasons:”
(1) mistake, inadvertence, surprise, or excusable
neglect;
(2) newly discovered evidence that, with reasonable
diligence, could not have been discovered in time
to move for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by
an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or
discharged; it is based on an earlier judgment

20a
Appendix A
that has been reversed or vacated; or applying
it prospectively is no longer equitable; or
(6) any other reason that justifies relief.
Fed. R. Civ. P. 60(b). “As a prerequisite to relief under
Rule 60(b), a party must establish that the facts of its case
are within one of the enumerated reasons contained in
Rule 60(b) that warrant relief from judgment.” Johnson
v. Unknown Dellatifa, 357 F.3d 539, 543 (6th Cir. 2004)
(citation omitted). “An appeal from an order denying
a Rule 60(b) motion does not bring up for review the
underlying judgment disposing of the complaint.” Id.
(citations omitted). Instead, our task is restricted to
determining “whether one of the specified circumstances
exists in which [the movant] is entitled to reopen the merits
of his underlying claims.” Id. (citation omitted).
In the present case, plaintiff moved the district court
for leave to substitute Delaware County Sheriff Russell
L. Martin for the Delaware County Sheriff’s Office as
the defendant in the lawsuit. On Wednesday, January 23,
2019, the district court granted plaintiff’s motion giving
plaintiff seven days to file a second amended complaint
with the new defendant. On Friday, February 1, 2019—the
ninth day from the grant of the motion—plaintiff had still
not filed a second amended complaint. Consequently, the
district court granted defendant’s motion for summary
judgment. That same day, the clerk of the court entered
a judgment that dismissed the lawsuit.

21a
Appendix A
Later—but still on February 1, 2019—plaintiff filed a
motion to vacate the judgment that dismissed the lawsuit.
Plaintiff argued that her failure to file the second amended
complaint was merely an oversight. According to plaintiff,
her second amended complaint had been prepared
for nearly eight months, but there was an issue at her
lawyer’s office. Specifically, the assistant (Suzette Doak)
of plaintiff’s attorney (Erica Ann Probst) was supposed
to file the second amended complaint, but on January
28, 2019, Ms. Doak’s husband had a medical emergency
and she had to take him to a hospital. Ms. Doak did not
return to the office until January 31, 2019. Additionally, the
majority of Ms. Probst’s staff were not in the office from
January 30, 2019 to February 1, 2019 because of inclement
weather. Neither Ms. Doak nor Ms. Probst realized the
second amended complaint had not been filed. Once Ms.
Probst received the order that dismissed the lawsuit, she
filed the second amended complaint the same day.
The district court denied plaintiff’s motion to vacate
the judgment, noting that its previously issued summary
judgment opinion “also explained that [it] would have
alternatively granted summary judgment in favor of the
Sherriff [sic] on the merits . . . even if Plaintiff had filed her
Second Amended Complaint.” Because the district court
properly granted summary judgment on these alternative
grounds, her challenge to the district court’s motion to
vacate the judgment fails as well.
IV.
For these reasons, we affirm the district court’s
judgment.

22a
Appendixand
B order of the
Appendix b — opinion
united states district court for the
southern district of ohio, eastern
division, filed february 1, 2019
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Case No. 2:16-cv-296
Teresa Berry, Administrator of the
Estate of Rhianna Filichia,
Plaintiff,
v.
Delaware County Sheriff’s Office,
Defendant.
Judge Michael H. Watson
Magistrate Judge Deavers
OPINION AND ORDER
Teresa Berry (“Plaintiff’) sues the Delaware County
Sheriff’s Office (“DCSO”) under 42 U.S.C. § 1983. DCSO
moves for summary judgment. Mot., ECF No. 39.
On January 23, 2019, the Court issued an Order
granting Plaintiff’s motion to substitute, ECF No. 58.
The Court stated that Plaintiff had seven days from the

23a
Appendix B
date of the Opinion and Order to file her Second Amended
Complaint, or the case would be dismissed without
additional notice for naming a party that is not sui juris.
Op. and Order 8, ECF No. 68. More than seven days have
passed since the Court’s Order, and Plaintiff has not filed
a Second Amended Complaint. Accordingly, the case still
proceeds against DCSO, which, as the Court explained in
its prior Opinion and Order, is not sui juris. Id. at 1 n.2.
DCSO is therefore entitled to summary judgment, and
the Court grants the same.
Alternatively, even if the Court were to construe the
Amended Complaint as against Delaware County Sheriff
Russell Martin in his official capacity, the Court would
grant him summary judgment for the reasons stated
below.
I. FACTS1
The facts of this case are tragic.
Plaintiff is the administratrix of the estate of her
daughter, Rhianna Filichia (“Filichia”). Filichia suffered
from diverticulosis and chronic attacks of diverticulitis
and, as a result, had to have surgery in 2015 to remove
a portion of her colon. Despite the surgery, Filichia
continued to have chronic attacks of diverticulitis, which
twice resulted in hospitalization.
1. The following facts are taken from Plaintiff’s Amended
Complaint or are otherwise uncontested. Additional facts are
discussed herein.

24a
Appendix B
Additionally, in 2013, Filichia was cited in Delaware
County for driving under the influence of alcohol and
failure to stop. She pleaded guilty to those charges and
was ordered to spend time in jail, to be served on the
weekends. Filichia was still serving the remaining days
of her weekend sentences in February of 2016 and would
schedule dates to serve as her health permitted.
Filichia was scheduled to serve some of her remaining
sentence on February 6 and 7, 2016, but she failed to
appear due to her diverticulitis. An arrest warrant was
issued on February 9, 2016. Between February 6 and
February 21, 2016, Filichia went to her physician and the
hospital several times due to pain from diverticulitis.
She was in pain on February 21, 2016, when Delaware
County Sheriff’s Deputies Darren Mohnsen (“Deputy
Mohnsen”) and Nathan Hysell (“Deputy Hysell”) arrested
her in her home on the outstanding warrant. Although
Filichia’s boyfriend, James Egbert (“Egbert”), asked the
deputies to take her to a hospital, they took her instead
to jail.
Upon intake, Filichia was evaluated by a licensed
practical nurse (“LPN”) from Correctional Healthcare
Companies, Inc. (“CHC”), which has a contract with the
Delaware County Jail, and deemed fit for confinement. At
that time, Deputy Mohnsen left Filichia at the jail.
Approximately thirty-five hours later, Filichia went
into septic shock and, despite efforts to save her life, died.

25a
Appendix B
II. STANDARD OF REVIEW
The standard governing summary judgment is set
forth in Federal Rule of Civil Procedure 56(a), which
provides: “The court shall grant summary judgment if
the movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a).
The Court must grant summary judgment if the
opposing party fails to make a showing sufficient to
establish the existence of an element essential to that
party’s case and on which that party will bear the burden
of proof at trial. Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986); see also Van Gorder v. Grand Trunk W. R.R., Inc.,
509 F.3d 265, 268 (6th Cir. 2007).
When reviewing a summary judgment motion, the
Court must draw all reasonable inferences in favor of
the nonmoving party, who must set forth specific facts
showing there is a genuine dispute of material fact for
trial, and the Court must refrain from making credibility
determinations or weighing the evidence. Matsushita Elec.
Indus. Co., 475 U.S. 574, 587 (1986); Pittman v. Cuyahoga
Cty. Dept. of Children and Family Serv., 640 F.3d 716, 723
(6th Cir. 2011). The Court disregards all evidence favorable
to the moving party that the jury would not be required
to believe. Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133, 150-51 (2000). Summary judgment will not
lie if the dispute about a material fact is genuine, “that is,
if the evidence is such that a reasonable jury could return
a verdict for the nonmoving party.” Anderson v. Liberty

26a
Appendix B
Lobby, Inc., 477 U.S. 242, 248 (1986); Barrett v. Whirlpool
Corp., 556 F.3d 502, 511 (6th Cir. 2009).
III. ANALYSIS
Plaintiff brings several Monell claims in this case:
(1) DCSO2 has a policy that was the moving force behind
an employee’s violation of Filichia’s Eighth Amendment
rights or that amounted to deliberate indifference
to serious medical needs in violation of the Eighth
Amendment; (2) the DCSO failed to adequately train
its employees regarding medical care, in violation of the
Eighth Amendment; and (3) the DCSO was deliberately
indifferent to Filichia’s serious medical needs in violation
of the Fourteenth Amendment. Plaintiff also brings a
state-law claim for wrongful death.
As an initial matter, Plaintiff’s third claim fails. Count
three does not even allege the existence of a municipality
policy and rather appears to seek respondeat superior
liability, which, as described below, is unavailable under
§ 1983.
Alternatively, to the extent Count Three is properly
pleaded as a Monell claim, it appears superfluous to
Counts 1 and 2. The only difference between Counts 1
and 2 and Count 3 is that, in Count 3, Plaintiff alleges a
violation of the Fourteenth Amendment. It is undisputed
2. Plaintiff initially also brought claims against CHC, but
those claims have been dismissed in light of Plaintiff’s settlement
with CHC. ECF No. 64.

27a
Appendix B
that Filichia was not a pretrial detainee at the time of
her confinement, and, thus, the Eighth Amendment (as
opposed to the Fourteenth Amendment) applies to her
deliberate indifference claims. Richko v. Wayne Cty.,
Mich., 819 F.3d 907, 915 (6th Cir. 2016).
The Court now turns to Counts 1 and 2 and, in doing
so, offers first some general guidance on § 1983 claims.
Section 1983 states in relevant part:
[e]very person who, under color of any statute,
ordinance, regulation, custom or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proceedings for redress[.]
42 U.S.C. § 1983. To prevail on a claim under § 1983, a
plaintiff must show that a person acting under color of
law deprived him of his rights secured by the United
States Constitution or its laws. Berger v. City of Mayfield
Heights, 265 F.3d 399, 405 (6th Cir. 2001).
In this case, Plaintiff does not sue any individuals
under § 1983 and instead invokes only the rules of
municipality liability under § 1983 set forth in Monell v.
New York City Department of Social Services, 436 U.S.
658, 692 (1978) and subsequent Supreme Court case law.

28a
Appendix B
Under Monell and its progeny, “[a] municipality or
other local government may be liable under this section
if the governmental body itself ‘subjects’ a person to a
deprivation of rights or ‘causes’ a person ‘to be subjected’
to such deprivation.” Connick v. Thompson, 131 S. Ct.
1350, 1359 (2011) (citing Monell, 436 U.S. at 691). Local
governments are responsible for their own illegal acts;
they cannot be held vicariously liable for their employees’
actions under § 1983. Id. (citing Pembaur v. Cincinnati,
475 U.S. 469, 479 (1986)). Thus, “[p]laintiffs who seek to
impose liability on local governments under § 1983 must
prove that ‘action pursuant to official municipal policy’
caused their injury.” Id. (citing Monell, 436 U.S. at 691). In
other words, a plaintiff must demonstrate a constitutional
violation3 and “(1) show the existence of a policy, (2) connect
3. Plaintiff does not explicitly argue that any DCSO employee
was deliberately indifferent to Filichia’s serious medical needs and
does not sue any individual DCSO employee. The Court could construe
Plaintiff’s response brief, however, as arguing that Deputy Mohnsen
was deliberately indifferent to Filichia’s serious medical needs when,
upon arrest, he took her to the Delaware County Jail for an evaluation
of fitness for confinement instead of straight to a hospital. Although
Plaintiff must establish a constitutional violation in order to prevail
on her Monell claim, it is not clear that she must demonstrate that
an individual employed by the municipality would be liable for the
constitutional violation. See North, 2018 WL 5794472, at *6 (6th Cir.
Nov. 5, 2018) (“In many cases, a finding that no individual defendant
violated the plaintiff’s constitutional rights will also mean that the
plaintiff has suffered no constitutional violation. In a subset of § 1983
cases, however, the fact that no individual defendant committed a
constitutional violation ... might not necessarily require a finding
that no constitutional harm has been inflicted upon the victim,
nor that the municipality is not responsible for that constitutional

29a
Appendix B
that policy to the municipality, and (3) demonstrate that
[her] injury was caused by the execution of that policy.”
North v. Cuyahoga Cty., No. 17-3964, 2018 WL 5794472,
at *7 (6th Cir. Nov. 5, 2018) (citation omitted).
“To show the existence of a municipal policy or custom
leading to the alleged violation, a plaintiff can identify:
(1) the municipality’s legislative enactments or official
policies; (2) actions taken by officials with final decisionmaking authority; (3) a policy of inadequate training or
supervision; or (4) a custom or tolerance or acquiescence
of federal violations.” Winkler v. Madison Cty., 893 F.3d
877, 901 (6th Cir. 2018) (internal quotation marks and
citation omitted). The first, second, or fourth theories are
“sometimes referred to as an affirmative policy or custom
theory.” North, 2018 WL 5794472, at *3.
In this case, Plaintiff invokes the third and fourth
methods of proving a policy, and the Court first considers
her affirmative policy theory before turning to her failure
to train theory.
harm. The type of claim ... premised on failure to act rather than
affirmative wrongdoing—might fit within this analysis. Assuming
that our caselaw allows for such an approach, we consider [plaintiff’s]
affirmative policy or custom and failure-to-train claims in turn.”)
(internal quotation marks and citation omitted)). Where appropriate,
the Court will assume that Plaintiff either has showed that Deputy
Mohnsen was deliberately indifferent to Filichia’s serious medical
needs (and will proceed to analyze whether Plaintiff has raised a
genuine issue of material fact regarding Monell liability) or that she
has established a constitutional violation but need not first establish
liability on the part of an individual municipal employee.

30a
Appendix B
A. Eighth Amendment: Affirmative Policy
1.

Custom of Taking Detainees to the Jail for
Evaluation Instead of to the Hospital4

Plaintiff first argues that DCSO has a written policy
that requires detainees in questionable physical health
to be delivered to a hospital prior to delivery to jail. She
contends the evidence shows, however, that DCSO has a
custom of ignoring that written policy and of instead taking
all detainees, regardless of their questionable health, first
to jail for an evaluation of fitness for confinement.5 Resp. 1,
ECF No. 57-1. This custom, she contends, was the moving
force behind her deprivation of constitutionally adequate
medical care.
4. For purposes of this claim, the Court assumes arguendo that
Deputy Mohnsen was deliberately indifferent to Filichia’s serious
medical needs by taking her to the jail for an evaluation of fitness for
confinement instead of immediately taking her to a hospital.
5. Plaintiff contends that other written policies regarding
the completion of intake questionnaire forms were not followed in
Filichia’s case, but those arguments are irrelevant to her Monell
claim as she offers no evidence of a pattern or custom of ignoring
such policies. Additionally, the evidence regarding what actions
DCSO or CHC employees took after Filichia was determined fit
for confinement are likewise irrelevant to this claim. In this Monell
claim, Plaintiff challenges only DCSO’s custom of ignoring written
policies that purportedly require certain detainees to be delivered
straight to a hospital and corresponding custom of instead delivering
such detainees first to the jail. Finally, Plaintiff’s arguments
concerning LPN Bloomfield’s actions or inactions are irrelevant for
the additional reason that Plaintiff settled all claims against CHC.

31a
Appendix B
As of August 18, 2016, DCSO’s Medical Policy stated,
in pertinent part, as follows:
C. POLICY
1. STAFF (standard 5120:1-8-09/G)
...
d. Corrections Officers are considered
health trained personnel, however,
all medical emergencies, or any
medical issue outside their scope of
competency, will be forwarded to the
nurse on duty.
2 . M EDICA L R ECEI V I NG S CR EEN
(standard 5120:1-8-09/B,C)
a . Health trained personnel, in
accordance with protocols established
by the health authority, shall perform
a written medical, dental and mental
health receiving screening on each
inmate upon arrival at the jail and
prior to being placed in general
population.
1. Inquiry includes at least the
following ....

32a
Appendix B
c. If the officer is uncertain of a
person’s physical health they will
notify the shift supervisor and the
nurse of the problem.
d. If the persons’ physical health is
questionable, the arresting agency
shall take the person to the hospital
for evaluation before acceptance.
The Sheriff’s Office is not financially
responsible for the medical billing of a
person prior to acceptance unless the
arrest was via a warrant.
Delaware County Sheriff’s Office Standard Operating
Policy, Ex. 12, ECF No. 50 at PAGEID ## 2036-37.
There is no genuine dispute of material fact with
respect to this claim.
As an initial matter, the effective date of the above
policy is after Filichia’s death. When asked about the
policy during his deposition, Detective Overly testified
both that he did not know whether that policy was an
amendment to a previously existing policy and that he did
not know what the written policy was prior to August 18,
2016. Overly Dep. 32:15-33:8. Plaintiff cites to no evidence
that this written policy—or any other written policy—was
in effect at the time of Filichia’s death.
Whether a written policy existed at the time of
Filichia’s arrest is ultimately irrelevant, however, because

33a
Appendix B
Plaintiffs theory for this claim is that the written policy
was not followed. Therefore, the pertinent inquiries are
what the custom was during Filichia’s arrest and booking
and whether her injury was caused by execution of that
custom. To that end, Plaintiff cites to no evidence of what
the written policy, custom, or practice was at the time of
Filichia’s arrest and booking. Detective Overly’s testimony
about the actual practice of deputies, see Overly Dep.
32:15-34:14, ECF No. 37-4, is ambiguous with respect to
timing. He testified that he did not know what the official
policy was at the time of Filichia’s arrest and booking,
and, although he testified to the custom of deputies, it is
unclear from his testimony whether he was describing the
customary practice at the time of Filichia’s arrest or the
time of his testimony. See id.
Even interpreting his testimony in the light most
favorable to Plaintiff and assuming that the custom he
testified to was the custom of deputies at the time of
Filichia’s arrest, his testimony does not create a genuine
dispute of material fact. Plaintiff misstates the DCSO’s
custom, arguing that “in practice ... detainees, regardless
of their questionable health, were delivered to the jail
so the personnel on duty could evaluate their fitness for
confinement.” Resp. 1, ECF No. 57-1. The evidence does
not support that characterization of the custom. Rather,
Detective Overly testified that, in practice, deputies would
bring detainees to the jail for an evaluation by the jail
nurse unless there was something “blatantly obvious”
such as “bleeding profusely or [being] doubled over in pain
and requesting to go to the hospital.” Overly Dep. 34:414, ECF No. 37-4. He further testified that, while at the

34a
Appendix B
jail, if the detainee said they needed to go to the hospital,
they would be transported to Grady Memorial Hospital
prior to being released into booking. Id. He testified that
Grady Memorial Hospital would sometimes admit the
detainees and sometimes “ship them back to the jail.”
Id. Plaintiff cites no evidence contradicting Detective
Overly’s testimony regarding the custom and thus fails to
raise a genuine dispute of material fact as to whether the
custom was to take detainees to jail “regardless of their
questionable health.” Resp. 1, ECF No. 57-1.
Further, Plaintiff offers no evidence that the DCSO’s
actual custom or practice was the moving force behind
Deputy Mohnsen’s alleged deliberate indifference. That
is, as noted above, that the custom or practice described
by Detective Overly required Deputy Mohnsen to take
Filichia immediately to a hospital if something was
“blatantly obvious” at the time of Filichia’s arrest, or if
she was doubled over in pain and requested to go to the
hospital.
Plaintiff does not allege that Deputy Mohnsen followed
that custom or practice but rather argues that he ignored
even that custom and practice by failing to take Filichia to
a hospital at the time of arrest despite Filichia’s obvious
physical discomfort and explicit requests by either
Egbert or Filichia to do so.6 In other words, she argues
6. Egbert testified that, at the time of Filichia’s arrest, he asked
Deputies Mohnsen and Hysell if Filichia could go to the emergency
room instead of jail and was refused. Egbert Dep. 39:1–3, ECF
No. 37–1. He also testified that Filichia’s stomach was extended at
the time of her arrest, id. at 42:13–22, and that the deputies were

35a
Appendix B
that Deputy Mohnsen contradicted the actual custom or
practice as it was testified to by Detective Overly. But
the occasional negligent administration of an otherwise
constitutional policy cannot serve as the basis for Monell
liability. Graham, 358 F.3d at 385.
In sum, Detective Overly testified to the existence of
a custom of taking detainees to jail for a determination
of fitness for confinement unless there was some blatant,
obvious medical condition requiring immediate medical
attention or the detainee was doubled over in pain and
requested to go to the hospital. He further testified that,
aware that she was in severe pain, id. at 37:17–38:10, but that they
nonetheless took her to jail instead of the hospital.
To the contrary, Deputy Mohnsen testified that Egbert did
not ask if Filichia could remain home, if Egbert could take Filichia
to the hospital, or if the deputies would take her to the hospital.
Mohnsen Dep. 69:3-10, ECF No. 37-2. He further testified that he
asked Filichia if she needed hospital care and that she declined. Id.
at 69:13-15. Deputy Mohnsen further testified that he did not notice
any bloating of Filichia’s abdomen when he arrested her, Mohnsen
Dep. 120:2-4, ECF No. 37-2, and Filichia had no trouble walking. Id.
at 133:4-23. He testified that she did not request medical treatment
during the transportation from her home to the jail. Mohnsen Dep.
134:20-22. He did, however, also testify that during the arrest,
Filichia “moved very slow and sluggishly,” appeared to be obviously
in discomfort, and was not moving like “a normal person.” Id. at
70:19-71:13.
At this stage of the litigation, the Court views the evidence in the
light most favorable to Plaintiff. This evidence is sufficient to create
a genuine dispute of material fact as to whether Egbert or Filichia
requested to go to the hospital and whether Filichia was visibly ill.

36a
Appendix B
if a detainee was taken to jail for a determination of fitness
for confinement and requested to go to a hospital, the
custom and practice was to take such a detainee to the
hospital prior to releasing them into booking. Regardless
of whether this custom and practice contradicted any
written policy in effect during the relevant time, Plaintiff
has not shown that this custom and practice was the moving
force behind Deputy Mohnsen’s decision to take Filichia
to jail instead of a hospital. Thus, even if Plaintiff could
show that Deputy Mohnsen was deliberately indifferent
to Filichia’s serious medical needs, her attempt to hold
the municipality liable for Deputy Mohnsen’s actions fails.
Out of an abundance of caution, the Court will consider
this claim in a different light and assume that Deputy
Mohnsen was not deliberately indifferent to Filichia’s
serious medical needs but that Plaintiff nonetheless
suffered a constitutional violation in being taken to jail
instead of straight to a hospital. As stated above, it is
not clear whether the Sixth Circuit permits municipal
liability in the absence of individual liability. Even if it
does, when a plaintiff “has not demonstrated that any
individual jail employee violated [her] Eighth Amendment
right to adequate medical care by acting with deliberate
indifference, [she] must show that the municipality itself,
through its acts, policies, or customers, violated [her]
Eighth Amendment rights by manifesting deliberate
indifference to [her] serious medical needs.” North, 2018
WL 5794472, at *7 (citation omitted).
Even assuming Plaintiff established a custom of
taking detainees first to jail for a fitness for confinement

37a
Appendix B
evaluation unless the detainee obviously needed emergency
care or was doubled over in pain and asked for emergency
care, Plaintiff has failed to show that such a custom rises
to the level of deliberate indifference to serious medical
needs in violation of the Eighth Amendment. Indeed, she
does not argue that the custom or practice as testified to
by Detective Overly is unconstitutional.
In fact, the custom appears to require the antithesis
of deliberate indifference: if the detaining officer either
subjectively notices the serious medical need or the
detainee brings it to the officer’s attention, custom
requires the officer to take that person immediately to
the hospital. A custom of taking to the jail detainees who
neither appear to the arresting officer to need emergent
care nor are requesting such care cannot, by definition,
amount to deliberate indifference to serious medical needs.
Plaintiff cannot prove, therefore, that the municipality was
deliberately indifferent to the serious medical needs of
detainees even if it acquiesced in this custom.
For all of the reasons above, Plaintiff’s Monell claim
based upon a custom of taking detainees to jail for a fitness
for confinement evaluation fails.
2.

Contract with CHC as Municipal “Policy”

It is unclear whether Plaintiff additionally bases her
Monell claim on DCSO’s contract with CHC. To the extent
she does so, her claim fails as precluded by Graham ex
rei. Estate of Graham v. County of Washtenaw, 358 F.3d
377, 384 (6th Cir. 2004) and Winkler v. Madison County,
893 F.3d 877 (6th Cir. 2018).

38a
Appendix B
First, the Sixth Circuit has held that there is nothing
facially unconstitutional about a county contracting with
a third party for the provision of medical services to
inmates. In Graham, the representative of the decedent’s
estate brought a Monell claim against the county, alleging
that the county’s contract with a third party medical
provider “constituted a municipal ‘policy’ that led to a
deprivation of [the decedent’s] constitutional right to
adequate medical care while in police custody.” Graham,
358 F.3d at 380. The Sixth Circuit acknowledged “that it is
not unconstitutional for municipalities to hire independent
medical professionals to provide on-site health care to
prisoners in their jails.” Id. at 384. Similarly, just last year
the Sixth Circuit held in Winkler that “a municipality may
constitutionally contract with a private medical company
to provide healthcare services to inmates.” Winkler,
893 F.3d at 901. Thus, Delaware County’s “policy” of
outsourcing inmate medical care to CHC is not facially
unconstitutional.
Second, Plaintiff has failed to show that Delaware
County’s policy of contracting with CHC for inmate
medical care was adopted with deliberate indifference.
“Where the identified policy is itself facially lawful, the
plaintiff must demonstrate that the municipal action
was taken with deliberate indifference as to its known
or obvious consequences. A showing of simple or even
heightened negligence will not suffice.” Id. (internal
quotation marks and citations omitted).
Here, Plaintiff has offered no evidence that CHC’s
“staffing or other policies presented an obvious risk to

39a
Appendix B
inmates’ constitutional rights to adequate medical care”
or that “the County knew of and disregarded that risk,”
id. at 901-02 (citations omitted), when it entered into the
contract with CHC. Indeed, Delaware County’s contract
in this case is similar to the contract at issue in Graham.
In Graham, the plaintiff argued that the county’s
contract with the third-party medical provider called
for deference by jail personnel to the decisions made by
that third party medical provider and impermissibly
permitted LPNs to perform duties prohibited by state
law, thereby creating a county “policy” of deference and
LPNs exceeding their scope of competency. Graham,
358 F.3d at 380-81. The plaintiff’s theory was that this
policy caused a violation of constitutional rights because,
in accordance with the policy, the booking deputies in
that case deferred to a LPN’s decision and detained the
decedent, instead of referring him for emergency medical
treatment/evaluation. Id. at 384.
The Sixth Circuit rejected the plaintiff’s argument
and found “nothing in the County’s policy that is actionable
under section 1983.” Specifically, the court stated that
it was not “unconstitutional for municipalities and their
employees to rely on medical judgments made by medical
professionals responsible for prisoner care.” Id. at 384
(internal quotation marks and citation omitted). Instead,
the Sixth Circuit found such a policy laudable in that it
ensured that “critical decisions about whether and at what
point a prisoner’s medical needs are sufficiently severe
that ambulatory care or hospitalization is warranted” were
made by independent parties rather than correctional

40a
Appendix B
officers. Id. It further found that even if the contract
permitted LPNs to make medical decisions they are not
permitted by state law to make, such a showing did not
establish that the county was deliberately indifferent to
inmates’ serious medical needs in enacting the policy. Id.
Thus, the mere facts that Delaware County’s contract
with CHC defers to CHC personnel the authority to
handle medical emergencies, including the arrangement of
ambulance services, see Exs. 12, 25, ECF Nos. 36-4, 36-6,
or relies on LPNs does not mean Delaware County was
deliberately indifferent to inmates’ medical needs when it
enacted the policy. See Graham, 358 F.3d at 384 (“Even if,
as [plaintiff] contends, the policy required jail personnel
to defer to the medical decisions of SecureCare employees,
and even if it permitted licensed practical nurses to make
medical decisions that Michigan law does not permit them
to make, those alleged defects are insufficient to hold the
County liable for the alleged constitutional violation in
this case.”); id. at 385 (“Even if [the decedent] received
constitutionally inadequate medical care, there is simply
no evidence that the policy was the ‘moving force’ behind
that constitutional violation.” (citation omitted)).7

7. This is not to say that, if a county enters into a contract with
a third-party provider for the provision of medical care to inmates
knowing that the contract, on its face, presents an obvious risk to
inmates’ constitutional rights to adequate medical care, the county
could never be found deliberately indifferent.

41a
Appendix B
B. Eighth Amendment Deliberate Indifference:
Failure to Train
Plaintiff’s next claim is that DCSO failed to adequately
train its corrections officers and deputies that bring
arrestees to the jail.
“In limited circumstances, a local government’s
decision not to train certain employees about their legal
duty to avoid violating citizens’ rights may rise to the
level of an official government policy for purposes of §
1983. Connick, 563 U.S. at 61. However, “[a] municipality’s
culpability for a deprivation of rights is at its most tenuous
where a claim turns on a failure to train.” Id. (citing City
of Oklahoma City v. Tuttle, 471 U.S. 808, 822-823 (1985)).
“To satisfy the statute, a municipality’s failure to train its
employees in a relevant respect must amount to deliberate
indifference to the rights of persons with whom the
untrained employees come into contact.” Id. (citing City of
Canton, Ohio v. Harris, 489 U.S. 378, 388 (1989) (emphasis
added)). Thus, under a failure to train theory, a plaintiff
must show that the training was “inadequate for the tasks
the [employees] were required to perform, the inadequacy
resulted from [the municipality’s] deliberate indifference,
and the inadequacy actually caused, or is closely related
to [the plaintiff’s] injury.” North, 2018 WL 5794472, at *4
(internal quotation marks and citation omitted).
1.

Inadequate Training

In evaluating Plaintiff ’s claim, the Court first
considers whether there is a genuine dispute of material

42a
Appendix B
fact as to whether DCSO has a “policy” of inadequate
training. Here, Plaintiff’s theory of liability is that Sheriff
Martin “failed to train DCSO officers to identify and
care for individuals in questionable health . . . .” Resp. 1,
ECF No. 57-1. Specifically, Plaintiff argues that DSCO
has a policy requiring DCSO employees to take certain
actions for individuals with questionable health, but DCSO
employees are not trained as to how to identify individuals
with questionable health. Id.
“[A] deputy jailer must be able to recognize when there
is a risk of a serious condition that requires additional
care.” Jimenez v. Hopkins Cty., Ky, 2014 WL 176578, at
*12 (W.O. Ky. Jan. 13, 2014), overruled on other grounds by
Shadrick v. Hopkins Cty., Ky, 805 F.3d 724 (6th Cir. 2015).
In Jimenez, the district court concluded that where there
was evidence that the county lacked a jail policy providing
guidance to jail personnel about what constituted a
medical emergency, what constituted a medical symptom
or condition that should be reported to medical, or what
to do in the event medical staff failed to respond, the
plaintiffs had met their burden of demonstrating a policy
of “inadequate training regarding how to observe and
assess inmates [sic] medical needs and respond to these
needs, how to determine what medical symptoms and
needs should be reported to medical ....” Jimenez, 2014
WL at *17.
On the other hand, the Sixth Circuit has recently
granted summary judgment on a failure to train claim
where the plaintiff argued, as here, that a county was
liable for failing to train its jail personnel “on anything

43a
Appendix B
other than basic first aid and CPR, even though the jailers
were the only medical providers at the jail all but 40 hours
per week.” Winkler, 893 F.3d at 903.
Even considering the evidence in the light most
favorable to Plaintiff, there is no genuine dispute of
material fact as to the adequacy of the DCSO employees’
training. Here, several DCSO employees testified that
they were trained in CPR and first aid. Mohnsen Dep.
11:17-22, ECF No. 37-2; Coontz Dep. 15:15-18, ECF No.
37-6; O’Brien Dep. 17:8-9, ECF No. 36-10.
Additionally, to the extent the written policy Plaintiff
relies on was operative during the relevant time period,
it states that, upon intake and completion of an initial
assessment, corrections officers are instructed to
notify the shift supervisor and the nurse if the officer
is uncertain of a detainee’s physical health. Policy, ECF
No. 50, PAGEID # 2037. The policy further states that,
after intake, any medical emergency or any medical
issue outside a corrections officer’s scope of competency
should be forwarded to the nurse on duty. Id. at PAGEID
# 2036. Medical emergencies are defined in the policy as
“acute illness or an unexpected health need that cannot
be deferred until the next scheduled sick call.” Id. at
PAGEID # 2039. Corrections officers are trained to
contact the nurse immediately if they believe an inmate
is suffering from an emergency medical condition, id. at
PAGEID # 2039, and to use the “Signal 99 radio code to
advise all available personnel of the emergency and where
it is located.” Id. The written policy further describes
exactly how corrections officers responding to a medical
emergency should act. Id. The nurse determines whether

44a
Appendix B
to call 911 to have an inmate transported to the hospital.
Id. Additionally, it appears the County contracted with
CHC for the provision of additional ongoing health
education and training programs for all deputies and
jailers. Agreement, ECF No. 51 at PAGEID # 2126.
Unlike in Jimenez, the evidence here shows that there
was a written policy (assuming it was in effect) directing
corrections officers on how to determine what medical
symptoms and needs to report to the nurse—at intake,
any time an officer is uncertain of a person’s physical
health; otherwise, all medical emergencies and any
medical issues outside of the officer’s scope of competency
should be forwarded to the duty nurse. The written policy
also directed corrections officers on how to respond to a
medical emergency. It seems the County further secured
additional, ongoing health education and training for
deputies and corrections officers through CHC.
Even if the written policy was not in effect at the time
of this incident, it is not clear what additional training
Plaintiff contends was necessary for the corrections
officers to adequately perform their tasks. With no further
evidence from Plaintiff about what additional training
should have been performed, she fails to raise a genuine
dispute of material fact that the County’s training was
inadequate. Accord Winkler, 893 F.3d at 903.
2.

Deliberate Indifference

Even assuming that Plaintiff could establish a genuine
dispute of material fact as to whether the training at
issue in this case was inadequate, she has not presented

45a
Appendix B
evidence that, in adopting its training program, the County
was deliberately indifferent to a risk of constitutional
violations.
A plaintiff can allege “deliberate indifference” in
one of two ways. Ordinarily, it is necessary to show a
“pattern of similar constitutional violations by untrained
employees” in order to show that policymakers had notice
of and “deliberately [chose] a training program that will
cause violations of constitutional rights.” Connick, 563
U.S. at 62 (citing Bd. of Comm’rs of Bryan Cty. v. Brown,
520 U.S. 397, 409 (1997)). Absent a pattern of violations, a
plaintiff may assert a “single incident” theory of liability
by alleging that the constitutional deprivation at issue
was the “obvious” consequence of the defendant’s failure
to provide specific training. Id. The latter theory is “rare”
and exists “in a narrow range of circumstances.” Id.
“Because [Plaintiff] does not provide evidence of
any previous instances where inmates have received
constitutionally inadequate healthcare at [Delaware
County Jail], the [first] situation is not in play here.”
Winkler, 893 F.3d at 903.
Moreover, Plaintiff cannot prevail under the “single
incident” theory. In Winkler, the Sixth Circuit rejected
a theory virtually identical to Plaintiff’s, concluding
that the assertion that jail personnel received only first
aid and CPR training was alone insufficient to “explain
how the quality of the medical training provided put the
County on notice of the likelihood that jail personnel
would respond inadequately to an inmate’s medical

46a
Appendix B
emergency.” Id. Because the evidence showed that the
third party’s medical staff was available to jail personnel
for consultation and that jail personnel indeed contacted
that staff regarding the decedent’s medical complaints,
the court found “no basis to conclude that the County
exhibited deliberate indifference by failing to provide
additional medical training to jail personnel.” Id.
So too, here. Plaintiff fails to explain how the medical
training DCSO employees received put Delaware County
on notice of the likelihood that jail personnel would
respond inadequately to an inmate’s medical emergency.
This is especially true where there is no evidence that
CHC staff was, as a matter of policy, unavailable to jail
staff for consultation. In short, Plaintiff has offered
no evidence that Delaware County was deliberately
indifferent to a risk of constitutional violations by failing
to provide additional medical training to DCSO deputies
and corrections officers.
3.

Policy as “Moving Force” Behind Constitutional
Injury

Finally, even if Plaintiff had shown the training was
inadequate, and even if she had shown that the County
was deliberately indifferent to the provision of inadequate
training, her claim must ultimately fail due to the inability
to establish a link between any inadequate training and
the injury to Filichia.
That is, there is no evidence suggesting that either
Deputy Mohnsen’s or any other jail personnel’s inability

47a
Appendix B
to identify Filichia’s questionable health lead to her injury.
Rather, the video evidence reveals that one of the first
things Deputy Mohnsen says upon entering the jail with
Filichia is that he needs to speak to a nurse. Ex. 9, ECF
No. 49. When LPN Bloomfield arrives, Deputy Mohnsen
immediately explains that Filichia had medical issues
involving pain in her abdomen, had recently been to the
hospital, had a colonoscopy scheduled for later in the week,
and that she had brought her medications and hospital
discharge paperwork with her. Id. Thus, Deputy Moshen
had identified that Filichia’s health was questionable,
regardless of the training he received.
Similarly, Plaintiff does not specify any other
corrections officer who interacted with Filichia at the
jail, failed, during the interaction, to recognize that
Filichia needed medical attention due to inadequate
training, and failed to refer Filichia for medical attention.
LPN Bloomfield was already with Corrections Officer
O’Brien when Filichia’s condition escalated the evening
of February 21, O’Brien Dep. 64:15-21, ECF No. 36-10;
Bloomfield Dep. 147:22-24, ECF No. 36-5, mooting the
relevance of the adequacy of O’Brien’s training. Thus,
even assuming that Plaintiff established the first two
elements of a failure to train claim, Plaintiff cannot show
that inadequate training was the moving force behind any
constitutional violation.
C. State law: Wrongful Death
“[A] federal court that has dismissed a plaintiff’s
federal-law claims should not ordinarily reach the

48a
Appendix B
plaintiff’s state-law claims.” Winkler, 893 F.3d at 905
(internal quotation marks and citation omitted). Therefore,
because the Court would dismiss Plaintiff’s § 1983 claims,
it would also decline to exercise supplemental jurisdiction
over her state-law claim.
IV. CONCLUSION
For the reasons stated above, the Court DISMISSES
Plaintiff’s Amended Complaint WITH PREJUDICE. The
previously scheduled mediation is hereby CANCELLED.
The Clerk shall enter final judgment in favor of Defendant
and terminate this case.
IT IS SO ORDERED.
/s/				
MICHAEL H. WATSON, JUDGE
UNITED STATES DISTRICT
COURT

